<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION, AMTRAK REFORM BOARD, AND THE SURFACE TRANSPORTATION BOARD</title>
<body><pre>[Senate Hearing 110-1112]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1112
 
                    NOMINATIONS TO THE DEPARTMENT OF
                  TRANSPORTATION, AMTRAK REFORM BOARD,
                  AND THE SURFACE TRANSPORTATION BOARD

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 18, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
73-466                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 18, 2007................................     1
Statement of Senator Carper......................................     4
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     1
Statement of Senator Lautenberg..................................    41
    Prepared statement...........................................    42
Statement of Senator Nelson......................................     2
Statement of Senator Smith.......................................     6
Statement of Senator Stevens.....................................     4

                               Witnesses

Johnson, Carl T., Nominee to be Administrator, Pipeline and 
  Hazardous Materials Safety Administration, DOT.................     6
    Prepared statement...........................................     7
    Biographical information.....................................     8
Martinez, Hon. Mel, U.S. Senator from Florida....................     2
Mulvey, Ph.D., Hon. Francis P., Renominated to be a Member, 
  Surface Transportation Board...................................    29
    Prepared statement...........................................    30
    Biographical information.....................................    31
Naples, Nancy A., Nominee to be a Member, Amtrak Reform Board....    14
    Prepared statement...........................................    15
    Biographical information.....................................    15
Stutler, Jr., Denver J., Nominee to be a Member, Amtrak Reform 
  Board..........................................................    22
    Prepared statement...........................................    23
    Biographical information.....................................    23


                    NOMINATIONS TO THE DEPARTMENT OF



                  TRANSPORTATION, AMTRAK REFORM BOARD,

                  AND THE SURFACE TRANSPORTATION BOARD

                              ----------                              


                       TUESDAY, DECEMBER 18, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The hearing will please come to order. It is 
my great pleasure and honor to introduce a most honorable 
Member of the Senate from the State of Florida, Senator 
Martinez.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Each of the nominees before us are slated to fill important posts 
critical to the future of America's transportation system. From 
ensuring the safety of the country's pipelines to overseeing the 
management of the Nation's passenger railroad, the work you will 
perform at each of your respective agencies, should you be confirmed, 
will help ensure that America's transportation system remains a global 
leader which supports our vibrant economy and great tradition of 
efficient travel and mobility.
    The positions each of you have been appointed to come with unique 
challenges:

        The Administrator of the Pipeline and Hazardous Materials 
        Safety Administration (PHMSA) must continue to chart a course 
        for the Department of Transportation's (DOT) newest safety 
        agency that will improve the safety and security of our 
        pipeline and hazardous materials transportation systems.

        Several recent pipeline accidents have highlighted the 
        importance of this task, and we are looking for strong 
        leadership at this agency, as well as a commitment to fully 
        implementing the important safety provision enacted into law by 
        this Committee in the Pipeline Inspection, Protection, 
        Enforcement and Safety Act of 2006 (PIPES Act).

        Amtrak Board Members must continue the progress made over the 
        last several years toward an efficient and effective national 
        passenger railroad, while working with the Congress to 
        reauthorize the railroad, gain stable and adequate funding, and 
        promote new investments that can unlock the promise of rail 
        service in new corridors.

        Members of the Surface Transportation Board must balance the 
        growing need for new and expanded capital investment in the 
        freight rail industry against the equally legitimate goal of 
        ensuring reasonable and fair prices and services for railroad 
        customers.

    Add to each of these individual challenges the government-wide 
budget restraints brought on by historic deficits and the continual 
demands to improve safety and mobility, and your work is truly cut out 
for you.

    I look forward to hearing your perspectives today as we examine 
your credentials and views, and I thank each of you for your commitment 
to public service. Should you be confirmed, I can assure you that we 
will be in touch regularly.
    As well, I would like to note that Mr. Carper has had a family 
emergency this morning. We will keep him in our thoughts. We have heard 
nothing negative about his nomination, and unless there is an 
objection, it is my plan to consider his nomination at an executive 
session along with the other nominees on the panel.

                STATEMENT OF HON. MEL MARTINEZ, 
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. Mr. Chairman, thank you very, very much. 
It's a real pleasure to be before you and Members of your 
Committee.
    And I'm here for the great pleasure and honor to introduce 
to the Committee a fellow Floridian, a fellow who has devoted a 
great deal of time to serving the people of my state. Denver 
Stutler is currently the President of Stutler Strategies, 
Incorporated, and a Founding Member of Perkins Bay, a real 
estate consulting firm in Tampa.
    Prior to assuming these roles, Denver served as Florida 
Secretary of Transportation. The Florida Secretary of 
Transportation, as my colleague from Florida well knows, is a 
very important and responsible job, and Mr. Stutler did it 
with--of course, I should say, Secretary Stutler--did it with 
great distinction. I had the opportunity to work closely with 
him while I was a member of the cabinet. And, being from the 
State of Florida, I was the HUD Secretary, and we worked on a 
number of issues relating to our state as our responsibilities 
intersected.
    Before that time, he was Chief of Staff to former Governor 
Jeb Bush, and, I know, in both of these public roles he made 
many positive contributions to improving Florida's 
transportation infrastructure and economic development.
    Prior to serving Governor Bush, Mr. Stutler served as the 
Senior Fellow for U.S. Senator Connie Mack, where he advised 
the Senator on environmental and water-related appropriations 
and policy.
    Denver earned his bachelor's degree in engineering, and 
master's degree in civil engineering, from the University of 
Central Florida, and has since demonstrated an outstanding 
commitment to public service.
    It's because of this record of dedication that I believe 
Denver Stutler is fully qualified to serve on the Amtrak Reform 
Board, and it is my hope that he will continue to ensure the 
availability of safe and reliable transportation service for 
all Americans.
    Mr. Chairman, thank you for allowing me the opportunity, 
and it's a real honor to present Mr. Stutler to the Committee.
    Senator Nelson. Mr. Chairman?
    The Chairman. Thank you.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, as you know, Senator Martinez 
and I have an excellent professional relationship, as well as a 
personal relationship that goes back 30 years. And on most--Mr. 
Chairman, I think, without exception, on all of the 
appointments that we have a chance to recommend, Senator 
Martinez and I have been joined at the hip in being unanimous 
about the particular nominees, particularly if they affect 
Florida. That includes judges, as well. And, in this particular 
case, of Mr. Stutler to be on the Amtrak Board, we, likewise, 
are unanimous in our opinion that he should be appointed to the 
Amtrak Board, for all of the reasons that Senator Martinez has 
just stated.
    The Chairman. With those two endorsements, I don't think we 
should have a hearing.
    [Laughter.]
    Senator Martinez. It would be OK with us, wouldn't it, 
Senator? It would be fine.
    Thank you, sir, very much.
    The Chairman. Well, I thank you very much, Senator. And 
thank you.
    Each of the nominees before us are slated to fill important 
posts critical to the future of America's transportation 
system. From ensuring the safety of the country's pipelines to 
overseeing the management of the Nation's passenger railroad, 
the work you will perform at each of your respective agencies 
should be confirmed--should you be confirmed, will help ensure 
that America's transportation system remains a global leader 
which supports our vibrant economy and great tradition of 
efficient travel and mobility.
    The positions each of you have been appointed to come with 
unique challenges. The Administrator of the Pipeline and 
Hazardous Materials Safety Administration must continue to 
chart a course for the Department of Transportation's newest 
safety agency that will improve the safety and security of our 
pipeline and hazardous materials transportation systems.
    Several recent pipeline accidents have highlighted the 
importance of this task, and we are looking for strong 
leadership at this agency, as well as a commitment to 
implement, fully, the important safety provisions enacted into 
law by this Committee in the Pipeline Inspection, Protection, 
Enforcement, and Safety Act of 2006.
    Amtrak Board Members must continue the progress made over 
the last several years toward an efficient and effective 
national passenger railroad, while working with the Congress to 
reauthorize Amtrak, gain stable and adequate funding, and 
promote new investments that can unlock the promise of rail 
service in new corridors.
    Members of the Surface Transportation Board must balance 
the growing need for new and expanded capital investment in the 
freight rail industry against the equal--the legitimate goal of 
ensuring reasonable and fair prices and services for railroad 
customers. Add to each of these individual challenges the 
government-wide budget constraints brought on by historic 
deficits and continued demands to improve safety and mobility, 
your work is truly cut out for you.
    I look forward to hearing your perspectives today as we 
examine your credentials and views. And I thank each of you for 
your commitment for public service. Should you be confirmed, I 
can assure you that we'll be in touch regularly.
    As well, I would like to note that Mr. Carper has had a 
family emergency this morning. We will keep him in our 
thoughts. We have heard nothing negative about his nomination, 
and, unless there is an objection, it is my plan to consider 
his nomination at an executive session, along with the other 
nominees on the panel.
    Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you, Mr. Chairman.
    I'd like to take the opportunity to introduce Carl Johnson, 
if I may.
    The Chairman. Please do.
    Senator Stevens. As many of you know, Alaska is the home of 
the one of the largest pipeline systems in the world, one which 
has transported over 15 billion barrels of oil since its 
inception in 1977. The Pipeline and Hazardous Materials Safety 
Administration plays a critical role in maintaining this 
pipeline and ensuring the safe transportation of oil and other 
hazardous goods all over the country. This morning I am pleased 
to see Carl Johnson here as the nominee for Administrator of 
this important agency.
    Before retiring in April, Mr. Johnson spent 19 years 
serving as President of the Compressed Gas Association, where 
he developed an extensive understanding of the transportation 
of hazardous materials. During his tenure, Mr. Johnson was 
dedicated to decreasing the risks associated with industrial 
and medical gases through the development of consensus 
standards, and he was instrumental in a push to harmonize these 
and other safety standards on a global scale.
    Before joining the Compressed Gas Association, Mr. Johnson 
worked at Corning Glass Works for 24 years, where he was the 
Director of Federal Government Relations. It was there that he 
met my good friend and colleague, former Representative Amory 
Houghton, who brought Mr. Johnson to the Hill in 1987, 
following his election to the House of Representatives. While 
working in the House, Mr. Johnson was responsible for leading 
the Congressman's work on the Government Operations Committee 
and had a hand in several key issues in the District.
    This Committee enjoyed an excellent working relationship 
with Admiral Barrett, the original Administrator of PHMSA, and 
I look forward to continuing such a relationship with his 
successor. And I hope to be able to congratulate Mr. Johnson on 
his nomination once he's confirmed.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Carper, would you care to make an opening remark?
    Senator Carper. If I may, sir, thanks. Thank you very, very 
much.

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. We're joined today by two of our nominees 
for the Amtrak Board of Directors. Denver Stutler's been 
introduced by both of his Senators. Nancy Naples is here, from 
New York. We welcome them both, along with our other nominees. 
We're saddened that Thomas C. Carper is not here, former Mayor 
of Macomb, Illinois. His wife, Gail, with whom a number of us 
met yesterday, was stricken, I think, en route to the hearing 
today, and has been hospitalized, I think, at GW, with a stroke 
of some kind, or a seizure, which is a matter of great concern. 
I've just called him on the phone to try to reach him, and was 
unable to reach him, but our thoughts and prayers are with her, 
and certainly with him.
    I've known him for the better part of a dozen years, and 
sort of--together, because our names are similar. It's hard to 
imagine that there are two Tom Carpers, but actually there's a 
third, who was poet laureate of Maine at one time. I used to 
like to send people copies of his poetry, pretend it was mine. 
But I knew Mayor Carper when he became a Member of the Amtrak 
Board of Mayors Advisory Council, I think, in about 1991, about 
15 years ago, and actually served as his Chairman from 2000 to 
2001, while he was still Mayor of Macomb.
    I think we're fortunate to have him as a nominee. I believe 
we're fortunate to have our other two nominees before us today 
for the Amtrak Board.
    And I'll just say one last thought. We've passed, with the 
guidance of our leadership here on this Committee, major energy 
legislation that the President appears ready to sign, and 
that'll be a good thing for our country as we seek to reduce 
our reliance on foreign oil and to reduce the emission of 
harmful substances into the air.
    I know there are some folks who believe that the heyday of 
passenger rail is behind us. I remember being regaled by 
stories by my aunts and uncles of train rides from coast to 
coast to be married during the middle of World War II, and 
just--at a time when we had troop trains going all over the 
country, and had no interstate railroad, and commercial 
aviation was still in its infancy. So, some people think those 
were the heydays of passenger rail. I actually think maybe some 
of the best days, some of the most important days for passenger 
rail in this country lie ahead, as we do seek to reduce our 
reliance on foreign oil.
    A lot of other countries share that goal with us, and a lot 
of them fund their intercity passenger rail systems, support 
them more robustly than we do at both the operating and the 
capital level. But they do so for selfish reasons, and we 
should, as well; and among those selfish reasons are to, as I 
said earlier, reduce reliance on foreign oil; second, to reduce 
the kind of congestions we face on our highways today. Coming 
down on--I actually take the train, many days, to Washington, 
but I can actually look out my window of the train, as we 
zipped along at 125 miles an hour, and see cars and trucks 
barely moving on the highways alongside of us. So, we need to 
reduce our reliance--we need to reduce our congestions on our 
roads, and our airports. My wife just flew out to the 
Appalachian State/Delaware football game out at--in Chattanooga 
last weekend, and she had some great stories to tell me about 
trying to get there by air. And so, all--I think all of us have 
had a bite out of that apple, and we know what challenges it 
poses for us.
    And the last piece is just harmful stuff into our air. 
Those of us on the East Coast live at the end of the tailpipe 
for this country. We breathe air that is not healthy, not good 
for us, not good for our children, not good for our 
grandparents, our parents, and we need to do something about 
it. And passenger rail speaks to all of those issues, speaks to 
all of those concerns. And it's not a silver bullet, but it's a 
speedier train than it used to be, and it's part of the 
solution to those two challenges that we face.
    So, I look forward to this hearing. And thank you, Mr. 
Chairman, for the opportunity to say some words.
    The Chairman. Thank you, Senator.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, for holding this 
hearing.
    And I welcome our nominees, as well. I'm anxious to hear 
their goals and the plan--and their plans for this--these very 
important positions.
    I'm going to be focusing on their views of the abandonment 
process, of balancing interests between shippers and railroads. 
I'm very concerned about the issue of private equity firms 
investing in railroads. These are legitimate sources of 
capital, but I am concerned about short-term investor goals 
trumping long-term interests of our commerce in this country. 
And I'm very anxious to know what they believe the STB's role 
is in ensuring that investments are made to maintain this basic 
infrastructure, because I'm afraid that that is being 
shortchanged, and I'm very anxious to see a much more vigorous 
role so that people in rural areas who have raw materials and 
products to get to market can get them there, and that they're 
not held hostage, as is happening in too many places in this 
country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I now would like to call upon the Administrator-designate 
of the Pipeline and Hazardous Materials Safety Administration 
of the U.S. Department of Transportation, Mr. Carl T. Johnson. 
May I also call the Member-designate of Amtrak Board of 
Directors, Ms. Nancy Naples. And may I call upon Member-
designate Amtrak Board of Directors, Mr. Denver Stutler; and 
Member, Surface Transportation Board, the Honorable Francis 
Mulvey.
    May I first call on Mr. Johnson.

          STATEMENT OF CARL T. JOHNSON, NOMINEE TO BE

        ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS

                   SAFETY ADMINISTRATION, DOT

    Mr. Johnson. Thank you, Mr. Chairman. Chairman Inouye, 
Senator Stevens, distinguished members of the Committee, it's a 
privilege to appear before you today. I welcome the opportunity 
to appear before you as you consider my nomination to serve as 
Administrator of the Pipeline and Hazardous Materials Safety 
Administration, PHMSA, at the Department of Transportation.
    I'd like to publicly thank my wife, Joyce, my son, David, 
and my daughter, Karin, for supporting me through my various 
journeys in life and continued interest in government service.
    I am honored to have been nominated by President Bush for 
this important position. And, if confirmed, I look forward to 
joining Secretary Peters and her strong leadership team at the 
Department. I want you to know that I will fully dedicate 
myself to ensuring that PHMSA fulfills its vital safety 
mission, and I will work closely with you and your staff to get 
the job done.
    PHMSA administers programs designed to protect our 
communities and the environment from the inherent risks 
resulting from the commercial transportation of hazardous 
materials and the operation of our Nation's pipelines. I 
believe that my 47-year professional career has provided me 
with a variety of assignments and responsibilities in 
management and leadership that will help me succeed in the 
position for which I have been nominated. My assignments have 
given me the opportunity to understand how organizations 
function, how objectives are set, and how performance is 
measured, and how to achieve the results the Administration, 
Congress, and the public expects and deserves.
    As President and CEO of the Compressed Gas Association, 
CGA, I had overall management responsibility for an 
organization whose sole responsibility and purpose is safety. 
At the CGA, I developed an appreciation for the value of 
consensus standards and for working cooperatively with 
regulators for improved safety and enforcement. Even with these 
standards and codes of practice in place, unfortunate incidents 
still occur. It's, therefore, critical to review accidents and 
near-misses, as well. If confirmed, I will do all in my power 
to continuously improve the standards and codes of practice by 
which we operate so as to provide the highest-possible level of 
safety for our workers, transporters, those who use our 
products, and the public at large.
    Mr. Chairman, I commit to you that, if confirmed, I will 
work diligently to carry out the responsibilities entrusted to 
me.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Johnson follow:]

  Prepared Statement of Carl T. Johnson, Nominee to be Administrator, 
      Pipeline and Hazardous Materials Safety Administration, DOT
    Chairman Inouye, Senator Stevens, distinguished members of the 
Committee, it is a privilege to appear before you today.
    I welcome the opportunity to appear before you as you consider my 
nomination to serve as Administrator of the Pipeline and Hazardous 
Materials Safety Administration (PHMSA) at the Department of 
Transportation.
    I would like to publicly thank my wife Joyce, my son David, and my 
daughter Karin, for supporting me through my various journeys in life 
and continued interest in government service.
    I am honored to have been nominated by President Bush for this 
important position and, if confirmed, I look forward to joining 
Secretary Peters and her strong leadership team at the Department. I 
want you to know that I will fully dedicate myself to ensuring that 
PHMSA fulfills its vital safety mission and that I will work closely 
with you and your staff to get the job done.
    PHMSA administers Federal programs designed to protect our 
communities and the environment from the inherent risks resulting from 
the commercial transportation of hazardous materials and the operation 
of our Nation's pipelines. I believe that my 47-year professional 
career has provided me with a variety of assignments and 
responsibilities in management and leadership that will help me succeed 
in the position for which I have been nominated. My assignments have 
given me the opportunity to understand how organizations function, how 
objectives are set, how performance is measured and how to achieve the 
result the Administration, the Congress and the public expects and 
deserves.
    As President and CEO of the Compressed Gas Association (CGA), I had 
overall management responsibility for an organization whose sole 
purpose is safety. At the CGA, I developed an appreciation for the 
value of consensus standards and for working cooperatively with 
regulators for improved safety and enforcement. Even with these 
standards and codes of practice in place, unfortunate incidents still 
occur. It is therefore also critical to review accidents and near 
misses. If confirmed, I will do all in my power to continuously improve 
the standards and codes of practice by which we operate so as to 
provide the highest possible level of safety for our workers, 
transporters/distributors, those who use the products, and the public 
at large.
    Mr. Chairman, I commit to you that, if confirmed, I will work 
diligently to carry out the responsibilities entrusted to me. Thank 
you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Carl Thor 
Johnson.
    2. Position to which nominated: Administrator, Pipeline and 
Hazardous Materials Safety Administration.
    3. Date of Nomination: November 1, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: January 27, 1938; Staten Island, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Joyce A. Johnson, Retired (spouse); David C. Johnson, 43 (son); 
        Karin L. Johnson, 40 (daughter).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Science, Cornell University, 1960.
        Master of Arts, George Washington University, 1963.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.


    1960-1963                      U.S. Navy, LTJG, Office of Naval
                                    Intelligence, Potomac River Naval
                                    Command, Washington, D.C.
    1963-1987                      Corning Glass Works, Corning, NY, and
                                    Washington, D.C.
    1987-1988                      Special Assistant, Representative Amo
                                    Houghton (R-NY).
    1988-2007                      President and CEO, Compressed Gas
                                    Association (CGA), Chantilly, VA.



    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.


    1988-2007                      President and CEO, Compressed Gas
                                    Association (CGA), Chantilly, VA.
    2000-2007                      Director, Dangerous Goods Advisory
                                    Council (DGAC), Washington, D.C.



    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.


    1972-present                   Capitol Hill Club, Washington, D.C.
    1981-present                   Emmanuel Lutheran Church, Vienna, VA.
    1972-present                   Cornell Club of Washington, D.C.,
                                    past President.
    1972-2002                      Severn River Yacht Club, Annapolis,
                                    MD.
    2005-present                   Cornell Assn. of Class Officers,
                                    Ithaca, NY, Class of 1960, Vice
                                    President.
    1996-present                   Worldgate Sport and Health Club,
                                    Herndon, VA.



    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        June 2000--$1,000--Friends of Houghton
        November 2002--$1,000--Friends of Houghton

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        March 2007--H. Emerson Thomas Lifetime Service Award from the 
        Compressed Gas Association for 19 years of dedicated service.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Speeches
        January 2001--Global Standards Harmonization--A U.S. 
        Perspective; European Industrial Gases Association Symposium

    Articles

        1995--Encyclopedia of the Future

    Between January 1989 and March 2006, I wrote an article entitled 
``Letter from the President'' in Compressions, the Compressed Gas 
Association monthly newsletter. The focus of these articles was current 
legislative and regulatory initiatives as well as announcing and 
promoting various CGA activities.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.


    March 8, 1990                  House Appropriations Committee
                                    Subcommittee on the Interior;
                                    Relating to the privatization of the
                                    U.S. Federal Helium Reserve.

    February 27, 1991              House Appropriations Committee
                                    Subcommittee on the Interior;
                                    Relating to the privatization of the
                                    U.S. Federal Helium Reserve.



    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    During my professional career, I have worked closely and 
cooperatively with the Congress and the Federal agencies. Most of this 
work was in developing and perfecting the manner in which we transport 
hazardous materials safely. In addition, a large part of my 
professional life has been devoted to the development of consensus 
standards for industrial and medical gases to effectively manage the 
risk associated with these gases. While at the CGA, I also initiated a 
drive to harmonize standards on a global scale. At the same time, I 
kept costs under control and built a strong competent professional 
staff to fulfill the CGA safety mission. The PHMSA safety mission and 
programs seem to me to be a logical progression for my skill sets and 
background. If confirmed, I look forward to bringing my interest in 
personnel development and consensus building to the Department of 
Transportation.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As President and CEO of the Compressed Gas Association, I have 
managed a budget and understand the need to control expenses and meet a 
payroll. I know how to develop a business plan, to set and meet 
objectives and to adjust those objectives as circumstances require. I 
understand the need to develop a competent, resourceful workforce and 
to review and appropriately reward performance. If confirmed, I will 
use my skills and experience to ensure that PHMSA has proper management 
and accounting controls and that the PHMSA mission is fulfilled.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        (1) The integrity of the Nation's pipeline system is being 
        challenged by aging and the encroachment of commercial 
        development.

        (2) The highway and air traffic infrastructure is aging and in 
        need of attention. At the same time, congestion is challenging 
        the safety and efficiency of how we move all traffic including 
        hazardous materials.

        (3) International harmonization is vital to the safe and 
        efficient flow of commerce on a global basis and will promote 
        global economic growth and development.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        (1) Post retirement health benefits for my spouse and myself 
        paid by the Compressed Gas Association and extended to senior 
        executive staff upon retirement.

        (2) Defined benefit pension from Corning, Inc., derived from 
        former employment.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Please refer to the 
Deputy General Counsel's opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In the course of my responsibilities at the Compressed Gas 
Association, I have been involved in developing and responding to 
Federal legislative and regulatory initiatives that are intended to 
improve the safety of transporting hazardous materials, including 
industrial and medical gases.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Please refer to the Deputy General Counsel's opinion letter.

                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    In the course of my responsibility as President and CEO of the 
Compressed Gas Association, a discrimination claim against the 
Association and me was settled in 1996.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of carl t. johnson
Professional Experience
    Retired, April 2007 to present.

    President, Compressed Gas Association (CGA), August 1988 to March 
2007.

        The CGA is the standard-setting, safety organization for the 
        industrial gas industry. With over 120 members, the CGA 
        produces more than 200 publications relating to the safe 
        manufacture, distribution and use of industrial and medical 
        gases and cryogenic liquids.

        The CGA works closely with U.S. regulatory agencies, including 
        the Department of Transportation Pipeline and Hazardous 
        Materials Safety Administration, the Occupational Safety and 
        Health Administration, and the Food and Drug Administration; 
        and also with international organizations, including the 
        International Organization for Standardization (ISO), and the 
        U.N. Committee of Experts on the Transportation of Dangerous 
        Goods.

    Special Assistant to Representative Amory Houghton, Jr. (R-NY-31), 
January 1987 to August 1988.

        Responsible for relationship with House GOP leadership and 
        Government Operations Committee.

    Corning Glass Works, 1963 to 1987.

        Director, Federal Government Relations, Washington, D.C.

        Earlier assignments in human resources, production, and 
        industrial relations.

    U.S. Navy, Washington, D.C., 1960 to 1963.

Education
    M.A., Public Administration, The George Washington University, 
Washington, D.C.

    B.S., Cornell University, Ithaca, New York.

Affiliations
    Cofounder, The Thursday Group

    Dangerous Goods Advisory Council

    NAM Associations Council

    U.S. Chamber of Commerce Committee of 100
                                 ______
                                 
                                                  November 19, 2007
Rosalind A. Knapp,
Designated Agency Ethics Official,
U.S. Department of Transportation,
Washington, DC.

Dear Ms. Knapp:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for the position of Administrator, Pipeline and 
Hazardous Materials Safety Administration at the Department of 
Transportation.
    As required by 18 U.S.C.  208(a) I will not participate personally 
and substantially in any particular matter that has a direct and 
predictable effect on my financial interests or those of any other 
person whose interests are imputed to me, unless I first obtain a 
written waiver, pursuant to section 208(b)(1), or qualify for a 
regulatory exemption, pursuant to section 208(b)(2). I understand that 
the interests of the following persons are imputed to me: my spouse, my 
minor children, or any general partner; any organization in which I 
serve as officer, director, trustee, general partner or employee; and 
any person or organization with which I am negotiating or have an 
arrangement concerning prospective employment.
    I resigned from my position as President and CEO of the Compressed 
Gas Association on March 31, 2007. As a retired executive of the 
Compressed Gas Association, I am entitled to receive health coverage 
for both me and my spouse for the rest of our lives, consistent with 
the Association's practice for departing executives. Therefore, I will 
not participate personally and substantially in any particular matter 
that has a direct and predictable effect on the ability or willingness 
of the Compressed Gas Association to provide these contractual 
benefits, unless I first obtain a written waiver, pursuant to 18 U.S.C. 
 208(b)(1). For a period of 1 year after my resignation, I also will 
not participate personally and substantially in any particular matter 
involving specific parties in which the Compressed Gas Association is a 
party or represents a party, unless I am first authorized to 
participate pursuant to 5 CFR  2635.502(d).
    I resigned my position as: Director, Dangerous Goods Advisory 
Council on March 31, 2007. For a period of 1 year after terminating 
this position, I wilt not participate personally and substantially in 
any particular matter involving specific parties in which this 
organization is a party or represents a party, unless I am authorized 
to participate pursuant to 5 CFR  2635.502(d).
    I will not participate personally and substantially in any 
particular matter that will have a direct and predictable effect on the 
financial interests of Corning, Inc., unless I first obtain a written 
waiver or qualify for a regulatory exemption.

                                            Carl T. Johnson
                                 ______
                                 
                          U.S. Department of Transportation
                                  Washington, DC, November 19, 2007
Hon. Daniel K. Inouye,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Mr. Chairman:

    I have examined the Financial Disclosure Report (SF-278) of Carl T. 
Johnson and his responses to related questions from your Committee 
arising from his nomination to be the Administrator of the Pipeline and 
Hazardous Materials Safety Administration at the Department of 
Transportation. I find that Mr. Johnson's financial interests will not 
present a conflict of interest should he be confirmed as the 
Administrator of the Pipeline and Hazardous Materials Safety 
Administration.
    Mr. Johnson is a former President and CEO of the Compressed Gas 
Association, Chantilly, Virginia. Mr. Johnson is currently retired.
    The financial interests of Mr. Johnson and his spouse include a 
defined benefit pension plan with Corning, Inc., checking and money 
market accounts, bank savings accounts, a variable annuity invested in 
widely held mutual funds, stock interests in CBS Corporation, General 
Motors Corporation, Viacom, Inc., Coming, Inc., Covance, Inc., and 
Quest Diagnostics, Inc., and a broad portfolio of widely held mutual 
funds.
    Mr. Johnson resigned from his position as President and CEO of the 
Compressed Gas Association on March, 31, 2007. As a retired executive 
of the Compressed Gas Association, Mr. Johnson is entitled to receive 
health coverage for both himself and his spouse for the rest of their 
lives, consistent with the Association's practice for departing 
executives. Therefore, Mr. Johnson has agreed not to participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on the ability or willingness of the Compressed 
Gas Association to provide these contractual benefits, unless he first 
obtains a written waiver, pursuant to 18 U.S.C.  208(b)(1). For a 
period of 1 year after his resignation, he has also agreed not to 
participate personally and substantially in any particular matter 
involving specific parties in which the Compressed Gas Association is a 
party or represents a party, unless he is first authorized to 
participate pursuant to 5 C.F.R.  2635.502(d).
    Mr. Johnson resigned his position as Director, Dangerous Goods 
Advisory Council, on March 31, 2007. For a period of 1 year after 
terminating this position, Mr. Johnson has agreed not to participate 
personally and substantially in any particular matter involving 
specific parties in which this organization is a party or represents a 
party, unless he is authorized to participate pursuant to 5 C.F.R.  
2635.502(d).
    Mr. Johnson has agreed not to participate personally and 
substantially in any particular matter that will have a direct and 
predictable effect on the financial interests of Corning, Inc., unless 
he first obtains a written waiver or qualifies for a regulatory 
exemption.
    Based upon these representations, I find that no conflict of 
interest will arise as a result of Carl T. Johnson being confirmed as 
the Administrator of the Pipeline and Hazardous Materials Safety 
Administration at the Department of Transportation.
            Sincerely,
                                         Rosalind A. Knapp,
                                            Deputy General Counsel.
                                 ______
                                 
                          U.S. Department of Transportation
                                  Washington, DC, November 19, 2007
Hon. Robert I. Cusick,
Director,
Office of Government Ethics,
Washington, DC.

Dear Mr. Cusick:

    This letter is submitted in accordance with the provisions of 5 
C.F.R.  2634.605(c) concerning the Financial Disclosure Report of Carl 
T. Johnson. Mr. Johnson has been nominated to be the Administrator of 
the Pipeline and Hazardous Materials Safety Administration at the 
Department of Transportation.\1\ I have reviewed Mr. Johnson's 
Financial Disclosure Report and I find that his financial interests 
will not present a conflict of interest with his duties as the 
Administrator of the Pipeline and Hazardous Materials Safety 
Administration.
---------------------------------------------------------------------------
    \1\ 5 C.F.R.  2634.605(c)(2)(i) requires that I enclose a copy of 
the position description with the report if one is available. There is 
no position description for any of the Presidential appointees in the 
Department of Transportation. A description of the duties and 
responsibilities of the Administrator of the Pipeline and Hazardous 
Materials Safety Administration can be found at 49 C.F.R.  1.45 and 
1.53.
---------------------------------------------------------------------------
    Mr. Johnson is a former President and CEO of the Compressed Gas 
Association, Chantilly, Virginia. Mr. Johnson is currently retired.
    The financial interests of Mr. Johnson and his spouse include a 
defined benefit pension plan with Corning, Inc., checking and money 
market accounts, bank savings accounts, a variable annuity invested in 
wide held mutual funds, stock interests in CBS Corporation, General 
Motors Corporation, Viacom, Inc., Corning, Inc., Covance, Inc., and 
Quest Diagnostics, Inc., and a broad portfolio of widely held mutual 
funds.
    Mr. Johnson resigned from his position as President and CEO of the 
Compressed Gas Association on March 31, 2007. As a retired executive of 
the Compressed Gas Association, Mr. Johnson is entitled to receive 
health coverage for both himself and his spouse for the rest of their 
lives, consistent with the Association's practice for departing 
executives. Therefore, Mr. Johnson has agreed not to participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on the ability or willingness of the Compressed 
Gas Association to provide these contractual benefits, unless he first 
obtains a written waiver, pursuant to 18 U.S.C.  208(b)(1). For a 
period of 1 year after his resignation, he has also agreed not to 
participate personally and substantially in any particular matter 
involving specific parties in which the Compressed Gas Association is a 
party or represents a party, unless he is first authorized to 
participate pursuant to 5 C.F.R.  2635.502(d).
    Mr. Johnson resigned his position as Director, Dangerous Goods 
Advisory Council, on March 31, 2007. For a period of 1 year after 
terminating this position, Mr. Johnson has agreed not to participate 
personally and substantially in any particular matter involving 
specific parties in which this organization is a party or represents a 
party, unless he is authorized to participate pursuant to 5 C.F.R.  
2635.502(d).
    Mr. Johnson has agreed not to participate personally and 
substantially in any particular matter that will have a direct and 
predictable effect on the financial interests of Corning, Inc., unless 
he first obtains a written waiver or qualifies for a regulatory 
exemption.
    Based upon these representations, I find that no conflict of 
interest will arise as a result of Carl T. Johnson being confirmed as 
the Administrator of the Pipeline and Hazardous Materials Safety 
Administration at the Department of Transportation.
            Sincerely,
                                         Rosalind A. Knapp,
                                            Deputy General Counsel.

    The Chairman. I thank you very much, sir.
    May I now recognize Ms. Nancy A. Naples. Congratulations, 
ma'am.

 STATEMENT OF NANCY A. NAPLES, NOMINEE TO BE A MEMBER, AMTRAK 
                          REFORM BOARD

    Ms. Naples. Good morning. Thank you.
    Thank you, Mr. Chairman and members of the Committee. It is 
an honor for me to appear before you today to seek your 
approval of my nomination to serve as a Member of the Amtrak 
Reform Board. I'm grateful to President Bush for honoring me 
with this nomination.
    I also thank my husband, Thomas H. O'Neill, Jr., who has 
encouraged and supported me through years of public service, 
and my lifelong friend, Ann--Dr. Ann Radice, Director of the 
Institute of Museums and Library Services, who is also with me 
today.
    My entire career, both in the private and public sectors, I 
have focused on operational and fiscal management. In my 12 
years as New York's Erie County Comptroller, where I was known 
as the ``taxpayers' watchdog,'' I was committed to improving 
and strengthening oversight and accountability of taxpayers' 
funds, and worked diligently to eliminate waste, fraud, and 
abuse in local government. If confirmed, I will work with 
fellow Board Members, Members of Congress, and the 
Administration, as well as employees of Amtrak, to ensure that 
America's national rail system is run as efficiently and cost-
effectively as possible.
    I believe Amtrak should be in the best financial health 
possible, and I take the Board's fiduciary responsibilities 
very seriously.
    In my role as New York's Commissioner of Motor Vehicles, I 
made security and safety our highest priorities. It is 
imperative that America's rail system and Amtrak passengers are 
safe from terrorist attacks. If confirmed, I will work to 
ensure that Amtrak is an integral part of our homeland security 
system.
    My lifelong attraction to trains has played an important 
role in my interest in this position. I have been a train 
traveler since I first took the New York Central, in 1965, on a 
high school trip from Buffalo to the New York World's Fair. 
Although in recent years, my use of Amtrak has been mainly on 
commuter trains, I have traveled by rail extensively in Europe 
and Canada, and I'm taking the Empire Builder in early 2008 to 
familiarize myself better with Amtrak.
    If confirmed, I pledge to attend to the business of Amtrak 
with the same dedication and commitment which I have 
demonstrated throughout my career, and I will work closely with 
this Committee and Congress to strive for a more efficient and 
effective Amtrak.
    Again, I appreciate the opportunity to appear before you 
today, and I'm happy to answer any questions you might have.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Naples follow:]

    Prepared Statement of Nancy A. Naples, Nominee to be a Member, 
                          Amtrak Reform Board
    Thank you, Mr. Chairman and members of the Committee. It is an 
honor for me to appear before you today to seek your approval of my 
nomination to serve as a member of the Amtrak Reform Board. I am 
grateful to President Bush for honoring me with this nomination. I also 
thank my husband, Thomas H. O'Neill, Jr., who is here with me today, 
and who has encouraged and supported me through my years of public 
service.
    My entire career, in both the private and public sectors, I have 
focused on operational and fiscal management. In my twelve years as 
Erie County, New York's Comptroller, where I was known as the 
Taxpayers' Watchdog, I committed to improving and strengthening 
oversight and accountability of taxpayers' funds, and worked diligently 
to eliminate waste, fraud and abuse in local government. If confirmed, 
I will work with fellow Board Members, Members of Congress and the 
Administration, as well as employees of Amtrak to ensure that America's 
national rail system is run as efficiently and as cost-effectively as 
possible. I believe Amtrak should be in the best financial health 
possible, and I take the Board's fiduciary responsibilities very 
seriously.
    In my role as New York State's Commissioner of Motor Vehicles, I 
made security and safety our highest priority. It is imperative that 
America's rail system and Amtrak passengers are safe from terrorist 
attacks. If confirmed, I will work to ensure that Amtrak is an integral 
part of our homeland security strategy.
    My lifelong attraction to train travel has played an important role 
in my interest for this position. I have been a train traveler since I 
first took the New York Central in 1965, on a high school trip from 
Buffalo to the New York World's Fair. Although in recent years my use 
of Amtrak has been mainly on commuter trains, I have traveled by rail 
extensively in Europe and Canada, and I am taking the Empire Builder in 
early 2008, to familiarize myself better with Amtrak.
    If confirmed, I pledge to attend to the business of Amtrak with the 
same dedication and commitment which I have demonstrated throughout my 
career, and I will work closely with this Committee and Congress to 
strive for a more efficient and effective Amtrak.
    Again, I appreciate the opportunity to appear before you today, and 
I am happy to answer any questions you might have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Nancy A. Naples
        Legal Name: Nancy Naples O'Neill

    2. Position to which nominated: Member, Amtrak Reform Board of 
Directors.
    3. Date of Nomination: November 15, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: September 14, 1948; Buffalo, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Thomas H. O'Neill, Jr. Self-employed
        Stepchildren: Barbara H. O'Neill (42); Laura B. O'Neill (39)

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A., Marymount College of Fordham University, 1970.
        M.B.A., Pace University, 1980.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Systems Analyst, American Telephone & Telegraph (AT&T), New 
        York, NY (1970-1974).

        Assistant Vice President, Trust & Investment, Chemical Bank, 
        New York, NY (1974-1981).

        Vice President, Merrill Lynch & Co., New York, NY (1981-1986).

        Vice President and Manager Information Services, USA, Hong Kong 
        and Shanghai Banking Corporation (HSBC), New York, NY (1986-
        1988).

        Vice President, Finance and Operations, Joseph J. Naples & 
        Associates, Buffalo, NY (1988-1993).

        Comptroller, Erie County, NY (1994-2005).

        Commissioner, NYS Department of Motor Vehicles (2006).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        NYS Division for Women, WNY Advisory Council (1996-2006).

        Chairman, Hamburg Town Supervisor Transition Team (2005).

        Transition Team for Erie County Executive-elect, Executive 
        Committee (2007).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Canisius College, Buffalo, NY--Trustee.

        BISON Scholarship Fund, Buffalo, NY--Director.

        The 100 Club of Buffalo & WNY, Buffalo, NY--Director.

        Roswell Park Alliance Foundation, Buffalo, NY--Director.

        Nardin Academy, Buffalo, NY--Trustee.

        Buffalo Fine Arts Academy, Buffalo, NY--Ex-Officio Director.

        Transition Team for Erie County Executive-elect--Non-paid 
        Consultant.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Buffalo Fine Arts Academy, 1989-present. I served as an Ex-
        Officio Member of the Board of Directors, 1994-2005.

        The 100 Club of Buffalo, 1994-present. From 2001-2002, I served 
        as President of this not-for-profit philanthropic organization 
        which provides help to public safety officers and their 
        families.

        Government Finance Officers Association (GFOA), 1994-2005.

        Business and Professional Women of Buffalo, WNY Chapter of BPW/
        USA, 1994-2005.

        WNY Public Broadcasting Association, 1993-2000.

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Elected Comptroller of Erie County in 1993 and re-elected in 
        1997 and 2001. No outstanding debt from any election.

        Appointed New York State Commissioner of Motor Vehicles in 
        2006.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Naples for Congress, 2004, $200,000.

        Reynolds for Congress, 04/20/98, $1,000.

        Reynolds for Congress, 10/22/98, $1,000.

        Reynolds for Congress, 10/22/02, $1,000.

        Reynolds for Congress, 3/16/06, $2,100.

        Reynolds for Congress, 3/16/06, $1,900.

        Jack Quinn (PAC), 5/3/98, $1,000.

        Rick Santorum, 4/14/06, $2,100.

        Rick Santorum, 4/14/06, $2,100.

        Friends of John Faso (NYS Gubernatorial candidate), 2006, 
        $5,000.

        Helfer for Mayor (City of Buffalo Mayoral candidate), 2005, 
        $7,500.

        Caruso for State Supreme Court, 2005, $500.

        Friends of Molly Musarra (Erie County Judicial candidate), 
        2007, $7,000.

        Friends of Giuliani (Presidential Primary candidate), 2007, 
        $2,800.

        Erie County Republican Committee, 2007, $6,000.

        Town of Hamburg Republican Committee, 2005, $500.

        Town of Hamburg Republican Committee, 2007, $500.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Canisius College Board of Regents Distinguished Citizen Award, 
        2007.

        National Conference for Community and Justice (NCCJ) Citation 
        Award, 2003.

        Nardin Academy Hall of Fame, 2002.

        Honorary Degree of Doctor of Humane Letters, Canisius College, 
        2002.

        Western New York Women's Hall of Fame, March 2002.

        Lifetime Achievement Award, The 100 Club of Buffalo and WNY, 
        2001.

        Italian-American Achievement Award, Good Government Club of 
        WNY, 2001.

        Outstanding Service Award, James A. Dockery Community Center, 
        2000.

        Abraham Lincoln Leadership Award, Erie County Republican 
        Committee, 1999.

        Joan A. Levine Award, Womanfocus, 1998.

        Outstanding Italian American Woman Award, Association of 
        Italian American Societies, 1994.

        Outstanding Service Award, Erie County Republican Party, 1994.

        Regents Scholarship, New York State, 1966.

        Honors Scholarship, Marymount College, 1966.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    In order for Amtrak to carry out its mission, major programs and 
major operational objectives, the issues of safety, security, funding 
and stewardship of taxpayer dollars must be dealt with effectively. I 
believe my experience with operational and financial management, 
transportation and government will enable me, if confirmed, to provide 
a constructive voice and perspective in addressing Amtrak's wide range 
of challenges. As Comptroller of New York's Erie County for nearly 
twelve years, I was known as the ``Taxpayers' Watchdog'', committed to 
improving and strengthening oversight and accountability of taxpayers' 
funds. As the County's Chief Auditor, I worked diligently to eliminate 
waste, fraud and abuse in Erie County as well as in many agencies which 
were funded by the county. As New York State's Commissioner of Motor 
Vehicles, I assured that safety and security were the hallmarks of the 
agency. As Chairman of the Governor's Traffic Safety Committee, I 
reviewed grant proposals and distributed NHA funds throughout the 
state, funding programs from motorcycle training to MADD. On a personal 
note, I have had a lifelong interest in train travel, and I hope to be 
part of a renewed interest in travel by train in America.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization.
    If confirmed, I would call upon Amtrak management to provide 
accurate and timely financial and management reports, implement 
appropriate standards and controls, and assure appropriate spending of 
tax dollars. As County Comptroller and Commissioner of DMV (overseeing 
a staff of 3,200) I worked diligently to incorporate strong management 
practices, accountability and controls.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        (1) Safety and security. The number of train accidents, 
        including those involving highway-rail grade crossings, cannot 
        be tolerated. This issue was one which we emphasized at DMV, 
        from the prospective of automobiles. While rail accidents have 
        begun to decline as a result of the National Rail Safety Action 
        Plan, we must do more. Assuring that railroad passengers are 
        safe is on ongoing challenge. Terrorist attacks in Madrid have 
        highlighted the importance of rail security in the world 
        changed by 9/11.

        (2) Stewardship of taxpayer dollars. Our citizens must be 
        assured that our priorities include oversight and 
        accountability for Federal funds, as well as elimination of 
        waste, fraud and abuse.

        (3) Intercity passenger rail. The existing, failing system must 
        be reformed, to provide a workable and valued passenger rail 
        service. Recent announcements regarding reduced airline 
        schedules and elimination of commuter flights make more 
        accessible, effective rail transportation imperative.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am currently receiving pension/retirement benefits from New York 
State & Local Retirement System.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice, with any business, 
association or other organization during your appointment? If so, 
please explain.
    I plan to continue my board memberships at Canisius College, The 
BISON Scholarship Fund, Roswell Park Alliance Foundation, and The 100 
Club of Buffalo and Western New York, only if maintaining these 
memberships will in no way impact my position on the Amtrak Reform 
Board, if confirmed.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As Comptroller of Erie County, I was directly involved in the 
passage and defeat of several items affecting the fiscal concerns of 
Erie County. All activities of this nature were directly related to my 
position as the Chief Fiscal Officer of Erie County and were directly 
related to fiscal matters of the county. For example, on numerous 
occasions, I actively worked for defeat of increased local property and 
sales taxes, and I worked to defeat the imposition of a ``sin tax'' on 
alcohol and cigarettes.
    As NY State Commissioner of Motor Vehicles, I was directly involved 
in the passage of laws which mandated more severe sentences for DUI and 
other traffic violations. Any activities of this nature were related to 
NYS Vehicle and Traffic Law.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Please refer to the enclosed General Counsel's Opinion letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    While serving as Comptroller of Erie County, NY and as NY State 
Commissioner of Motor Vehicles, I and my office were defendants in many 
lawsuits. These cases involved allegations regarding me in my roles as 
County Comptroller and Commissioner of Motor Vehicles.
    As a candidate for the U.S. Congress in 2004, I brought an Election 
Law ``impounding action'' against my opponent, relative to the election 
race. The matter was closed, by stipulation.
    In 2004, I, as Comptroller of Erie County, and several elected 
officials brought a suit against the Erie County Executive and the Erie 
County Legislature challenging the process by which the County's 2005 
Budget was adopted. The case was settled.
    I was divorced from John J. Addeo on 2/1/79.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of nancy a. naples
Career Summary
    Accomplished business executive with proven performance in both 
public and private sectors. Demonstrated strong analytical and 
managerial expertise in government, banking, securities, and insurance 
industries. Active civic leader who has guided Boards of Directors in 
political, healthcare, community, educational and artistic endeavors.
Professional Experience
    Commissioner, New York State Department of Motor Vehicles, Albany, 
NY, 2006.

        As a member of Governor George E. Pataki's cabinet, oversaw 
        issuance and regulation of drivers' licenses, assuring the 
        integrity and reliability of the documents; registration of 
        vehicles; inspections of vehicles and equipment; adjudication 
        of traffic violations; and administration of traffic safety 
        programs. Managed a $322 million operating budget and a staff 
        of over 3200. The Department maintains records on more than 11 
        million vehicles, generating revenues in excess of $1.2 
        billion.

    Significant Accomplishments

  <bullet> Promoted traffic safety through chairmanship of the 
        Governor's Traffic Safety Committee, which disbursed National 
        Highway Traffic Safety Administration funds to municipalities, 
        agencies and civic organizations throughout New York State, and 
        through personal advocacy and media endorsements.

  <bullet> Advanced NYS DMV's leadership role in the Department of 
        Homeland Security's Real ID rulemaking advisory panel.

  <bullet> Improved customer service through operational efficiencies 
        and greater use of technology.

  <bullet> Completed and implemented DMV's strategic plan, A Roadmap to 
        Excellence, establishing key objectives and measures to fulfill 
        the agency's mission.

    Comptroller, Erie County, NY, 1994-2005.

        Served as the Chief Fiscal Officer overseeing a $1.1 billion 
        budget. Elected in November 1993, reelected in 1997 receiving 
        78 percent of the vote, and elected to a third term in 2001. 
        Retired July 2005.

    Significant Accomplishments

  <bullet> Proposed and implemented securitization of the County's 
        share of the National Tobacco Settlement bringing over 
        $246,000,000 to the County.

  <bullet> Structured a unique public-private financing plan for the 
        County's contribution to the construction costs for HSBC Arena, 
        which saved County taxpayers over $20 million in interest 
        expense.

        Created a comprehensive cash management program acknowledged by 
        investment bankers throughout New York State as a model program 
        that generates high interest earnings, while assuring safety 
        and full liquidity.

        Returned over $100 million to the taxpayers through prudent 
        investments of taxpayers' dollars.

        Conducted audits of County departments preventing the loss of 
        $4.4 million in State and Federal reimbursements.

    Vice President, Finance & Operations, Joseph J. Naples & 
Associates, Buffalo, NY, 1988-1993.

        Family-owned surety bond, worker's compensation and insurance 
        agency serving over 2,000 corporate and individual clients, 
        generating premiums of over $65 million annually.

    Significant Accomplishments

        Managed all financial aspects of the firm. Structured, designed 
        and implemented computer systems to automate accounting, 
        financial reporting and customer service. Consulted corporate 
        clients on workers compensation, OSHA compliance and safety 
        programs through subsidiary firm, Risk & Technical Management, 
        Inc.

    Vice President and Manager Information Services, USA, Hong Kong & 
Shanghai Banking Corporation (HSBC), New York, NY, 1986-1988.

    Significant Accomplishments

        Managed over 60 technical analysts while serving as the 
        highest-ranking woman in HSBC USA. Structured and implemented 
        HSBC's first international banking project leading a team from 
        U.S.A., Hong Kong and Marine Midland Bank.

    Vice President, Merrill Lynch & Co., New York, NY, 1981-1986.

    Significant Accomplishments

        As Vice President of Corporate Systems Division, managed 50 
        analysts for development of quantitative forecasting models for 
        Research Division. Designed and implemented syndication of 
        corporate and municipal bond offerings for Investment Banking 
        Division. Developed Information Technology Strategic Plan to 
        meet Merrill Lynch's future systems requirements.

    Assistant Vice President, Chemical Bank, New York, NY, 1974-1981.

    Significant Accomplishments

        As Assistant Vice President of Trust and Investment Division, 
        developed new pension products to comply with ERISA 
        requirements, automated corporate trust accounting, and managed 
        New York City's tax processing.

    Systems Analyst, American Telephone and Telegraph (AT&T), New York, 
NY, 1970-1974.

    Significant Accomplishments

        As a Senior Analyst at AT&T, Long Lines, specialized in 
        development and design of mainframe systems for their long 
        distance business.
Civic Leadership
    Health Related

  <bullet> Past-President, Roswell Park Foundation Board, The Board 
        solicits, receives and administers funds to support scientific 
        and clinical research at Roswell Park Cancer Institute, 
        Buffalo, NY 19972000. Nancy was invited to serve on this Board 
        again, and her current term began in 2003.

  <bullet> Founding Member, Roswell Park Alliance, a volunteer 
        organization which supports cancer research treatment and 
        education programs at Roswell Park Cancer Institute, Buffalo, 
        NY 1990-1997.

    Education Related

  <bullet> Member, Board of Trustees, Canisius College, Buffalo, NY, a 
        private Jesuit college, 2003-present and 1993-1999.

  <bullet> Member, Board of Trustees, Nardin Academy, an independent, 
        Catholic school that has a Montessori preschool, elementary and 
        high school campus. Served as Chair of Personnel Committee. 
        1998-2005.

  <bullet> Honorary Chairperson, Kids Voting Bi-Partisan Bash, served 
        on committee since its inception in 1998. This effort raises 
        funds for KIDS Voting WNY a nonprofit, nonpartisan voter 
        education program. 1998-2005.

  <bullet> Member, Board of Regents, Canisius College, Buffalo, NY 
        1990-1993.

  <bullet> Class Chair, Marymount College Alumni Association, 1975-
        1996.

    Community Related

  <bullet> Ex-officio Director, Buffalo Fine Arts Academy (Albright 
        Knox Art Gallery), Buffalo, NY, one of the world's leading 
        contemporary art galleries, 1994-2005.

  <bullet> Member, Executive Committee, New York State Division for 
        Women, WNY Advisory Council, advocates for women's issues in 
        New York State, acts as direct link between women of New York 
        State and Governor Pataki. 1996-2006.

  <bullet> Member Government Finance Officers Association (GFOA), 
        served on their National Standing Committee on Cash Management, 
        1997-2000.

  <bullet> First woman President of The One Hundred Club of Buffalo & 
        Western New York, an organization that assists families of 
        public servants killed or injured in the line of duty, member 
        since 1997, President 2000 and 2001.

  <bullet> Member, Women's Group of Buffalo, a networking group of 
        women business and community leaders, 1994-present.

  <bullet> Member, Business and Professional Women of Buffalo, the 
        Western New York Chapter of the BPW/USA which promotes the 
        interests of business and professional women, 1994-2005.

  <bullet> Trustee, Western New York Public Broadcasting Association, 
        1993-2000.
Political Leadership
  <bullet> Candidate, U.S. House of Representatives, 27th District, NY, 
        November 2004.

  <bullet> New York State Delegate, Republican National Convention 
        1996, 2000 and 2004.

  <bullet> Seconded Nomination of Republican Senatorial Candidate, Rick 
        Lazio, at New York State Republican Convention, May 2000.

  <bullet> Member, Erie County Executive Joel A. Giambra's Transition 
        Team for Tomorrow, 1999.

  <bullet> New York State Republican Committee, authored study entitled 
        The Real Gender Gap: Republican Women Holding Elected Office in 
        New York State (1998).

  <bullet> Member, Governor George Pataki's Transition Team, 1995.

Education
    MBA with Distinction, Pace University, New York, NY, December 1980.
    B.A., cum laude, Marymount College, Tarrytown, NY, May 1970.

Honors/Awards
        Canisius College Board of Regents Distinguished Citizen 
        Achievement Award, May 2007.

        National Conference for Community and Justice (NCCJ) Citation 
        Award, March 2003.

        Nardin Academy Hall of Fame, inducted October 2002.

        Honorary Degree of Doctor of Humane Letters, Canisius College, 
        May 2002.

        Western New York Women's Hall of Fame, inducted March 2002.

        Lifetime Achievement Award, The 100 Club of Buffalo and WNY, 
        2001.

        Italian-American Achievement Award, The Good Government Club of 
        WNY, 2001.

        Outstanding Service Award, James A. Dockery Community Center, 
        2000.

        Abraham Lincoln Leadership Award, Erie County Republican 
        Committee, 1999.

        Joan A. Levine Award, Womanfocus, 1998.

        Outstanding Italian American Woman Award, Association of 
        Italian American Societies, 1994.

        Outstanding Service Award, Erie County Republican Party, 1994.

        Regents Scholarship, New York State, 1966.

        Honors Scholarship, Marymount College, 1966.
Personal
    Married to Thomas H. O'Neill, Jr.
    Chairman, Somerset Capital Partners, Buffalo, NY.
    Chairman, Union Drilling Inc., Fort Worth, TX.

    The Chairman. I thank you very much, Ms. Naples.
    Now may I recognize Mr. Denver Stutler.

 STATEMENT OF DENVER J. STUTLER, JR., NOMINEE TO BE A MEMBER, 
                      AMTRAK REFORM BOARD

    Mr. Stutler. Thank you, Mr. Chairman, members of the 
Committee. I'm honored to appear before you today. It is an 
honor to be nominated by President Bush as a member of the 
Amtrak Reform Board. I appreciate greatly your consideration of 
my nomination.
    I believe that Amtrak provides an important component of 
our Nation's overall transportation system through intercity 
passenger rail service. I think that as our Nation considers 
the overall future of our transportation system, intercity 
passenger rail should be a part of that discussion.
    As a nominee from Florida, I believe there is room for 
improving the ridership of Amtrak, especially into and out of 
Florida. I have personally traveled on Amtrak several times, 
once for a vacation to the Northeast and other times between 
Washington, D.C., and New York. It has been a good experience 
for me. I'm always amazed, when I travel on Amtrak, that it is 
not used by more people. If confirmed, one of my interests is 
to learn more about why people are not using Amtrak.
    I believe my professional experience offers, along with the 
other Board Members, a perspective that will provide the 
necessary leadership for Amtrak. If confirmed as a Board 
Member, I commit to work with the Committee, Congress, the 
Administration, and my fellow Board Members to initiate and 
administer Amtrak's strategic direction. I will also work to 
provide leadership that complements the role of the day-to-day 
managers and to ensure appropriate financial reporting is in 
place.
    Additionally, I will focus on three areas I believe to be 
important for Amtrak's long-term success: providing on-time 
service, ongoing financial oversight, and safety.
    Providing on-time service is important, because Amtrak is a 
service provider. Providing reliable service requires constant 
monitoring and continually seeking the best practices to 
achieve the best service.
    Ongoing financial oversight is especially important in the 
stewardship of public resources.
    Continued financial oversight is critical for an efficient 
operation and to maintain the confidence of taxpayers and 
Congress.
    Safety requires continual attention and focus from 
leadership. The safety of employees, travelers, and the public 
are critical for the long-term viability of Amtrak.
    Again, thank you, Mr. Chairman, for the opportunity to be 
before you here today. I would be happy to answer any 
questions.
    [The prepared statement and biographical information of Mr. 
Stutler follow:]

 Prepared Statement of Denver J. Stutler, Jr., Nominee to be a Member, 
                          Amtrak Reform Board
    Chairman Inouye, members of the Committee, I am honored to appear 
before you today. It is an honor to be nominated by President Bush as a 
member of the Amtrak Reform Board. I appreciate greatly your 
consideration of my nomination.
    I believe that Amtrak provides an important component of our 
Nations' overall transportation system through intercity passenger rail 
service. I think that as our Nation considers the overall future of our 
transportation system, intercity passenger rail should be a part of the 
discussion. As a nominee from Florida, I believe there is room for 
improving the ridership of Amtrak, especially into and out of Florida.
    I have personally traveled on Amtrak several times, once for a 
vacation to the Northeast and other times between Washington, D.C. and 
New York City. It has been a good experience for me. I am always amazed 
when I travel on Amtrak that it is not used by more people. If 
confirmed, one of my interests is to learn more about why people are 
not using Amtrak.
    I believe my professional experience offers, along with the other 
Board Members, a perspective that will provide the necessary leadership 
for Amtrak. If confirmed as a Board member, I will work with the 
Committee, Congress, the Administration and my fellow Board Members to 
initiate and administer Amtrak's strategic direction.
    I will also work to provide leadership that compliments the role of 
the day-to-day managers, and to ensure appropriate financial reporting 
is in place. Additionally, I will focus on three areas I believe to be 
important for Amtrak's long-term success: (1) Providing on-time 
service, (2) On-going financial oversight, and (3) Safety.
    Providing on-time service is important because Amtrak is a service 
provider. Providing reliable service requires constant monitoring and 
continually seeking the best practices to achieve the best service.
    On-going financial oversight is especially important in the 
stewardship of public resources. Continued financial oversight is 
critical for an efficient operation and to maintain the confidence of 
taxpayers and Congress.
    Safety requires continual attention and focus from leadership. The 
safety of employees, travelers and the public are critical for the long 
term viability of Amtrak.
    Again, thank you Mr. Chairman for the opportunity to be before you 
here today. I would be happy to answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Denver Joe 
Stutler, Jr.
    2. Position to which nominated: Member, Amtrak Reform Board of 
Directors.
    3. Date of Nomination: November 15, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 3812 West Linebaugh Avenue, Tampa, FL 33618.

    5. Date and Place of Birth: July 6, 1964; Stuttgart, Germany 
(Father--U.S. Army).
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: N/A

        Children: Denver Joe Stutler III (DJ), 12; Chandler Scott 
        Stutler, 11

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Central Florida, BSE, Civil Engineering, 1987.
        University of Central Florida, MSE, Civil Engineering, 1989.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.


    07/89-12/94         Project Manager        Camp Dresser & McKee,
                                                Inc.
    01/95-12/96         Partner                Ecosystems Land
                                                Mitigation.
    01/97-04/99         Principal              Camp Dresser & McKee,
                                                Inc.
    04/99-07/02         Chief of Staff         Florida Dept. of
                                                Environmental
                                                Protection.
    07/02-10/03         Deputy Chief of        Office of the Governor,
                         Staff*                 Florida.
    10/03-07/05         Chief of Staff         Office of the Governor,
                                                Florida.
    07/05-01/07         Secretary              Florida Department of
                                                Transportation.
    01/07-present       President              Stutler Strategies, Inc.
    04/07-present       Founder                PerkinsBay

*Non-managerial.


    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: Various Boards as 
identified in Statute for position of Secretary of Transportation in 
Florida.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        President, Stutler Strategies, Inc.

        Managing Partner, PerkinsBay LLC.

        Partner (not active), Lake Shipp Marina.

        Partner (not active), MIHI 500 Trust.

        Board Member, Florida Earth Foundation.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Florida Engineering Society, 1997-1999, 2007.

        American Society of Civil Engineers, 1997-1999.

        Masonic Blue Lodge #239, Winter Park, FL, 1997-present.*

        Egypt Temple Shriners, 2004-present.*

        Member, Metro Church of Christ, Oviedo, FL, 1997-1999.

        Member, First Christian, Tallahassee, FL, 1999-2001.

        AASHTO, member (as Sec. of Transportation), 2005-2007.

        Florida Earth Foundation, Board Member, 2007-present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

    Public Office Positions:

        04/99-07/02, Chief of Staff, Florida Dept. of Environmental 
        Protection.

        07/02-10/03, Deputy Chief of Staff, Office of the Governor.

        10/03-07/05, Chief of Staff, Office of the Governor.

        07/05-01/07, Secretary, Florida Department of Transportation.

    These were all appointed positions. None of these positions 
involved any campaign and subsequently there is no outstanding campaign 
debt for which I would be personally liable.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Jeb Bush for Governor; 1998; $500
        Bob Dole; 8/28/1995; $1,000

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        UCF Alumni Professional Achievement Award, College of 
        Engineering & Computer Science, Recipient, 2003.

        J.P. McMullen Award, Jaycees Outstanding Young Floridian, 
        Recipient, 2003.

        United States Senator Connie Mack, 105th Congress, Fellow, 
        1997-1998.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Contributing author for the Handbook of Hydrology.

        Authored various articles on wetlands mitigation banking.

        Authored various articles on transportation in Florida 
        Department of Transportation newsletter and other industry 
        newsletters.

        Numerous speeches as Secretary of Florida Department of 
        Transportation.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    As a principal for Ecobank, I testified to the U.S. Senate 
Committee on Environment and Public Works in 1996 on the subject of 
wetlands mitigation banking.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Amtrak Board initiates and administers Amtrak's strategic 
direction while it approves an annual corporate budget, capital lease 
commitments, and corporate strategic plan. I believe my experience as 
Secretary of the Florida Department of Transportation provided me with 
experience in developing strategic direction as well as budgets and 
other governance related activities. My other experiences in my career 
have taught me the value of and important lessons of proper 
administration and management from the project-level to the overall 
organizational level.
    It would be a privilege to serve on the Amtrak Board. I wish to 
serve because I believe commuter rail is an important aspect of our 
transportation objectives to move people and goods in this country. I 
believe my experience can provide a useful perspective in conjunction 
with the other Board Members to provide leadership for continued 
commuter rail service.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I will work to ensure good managers are in place for 
the day-to-day operations and that appropriate financial reporting is 
provided so that accounting controls are in place.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

    I believe the top three challenges for Amtrak are:

        (1) Providing on-time service. A service provider must provide 
        service. Successfully providing reliable service requires 
        constant monitoring and continually seeking the best practices 
        to achieve the best service.

        (2) On-going financial oversight. On-going financial oversight 
        is important in the stewardship of public resources. Continued 
        financial oversight is critical for an efficient operation and 
        to maintain the confidence of taxpayers and Congress.

        (3) Safety. Safety requires continual attention and focus from 
        leadership. The safety of employees, travelers and the public 
        are critical for the long term viability of Amtrak.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        State of Florida Defined Contribution Retirement Plan (ING 
        Managed).

        Salary from Stutler Strategies, Inc.

        Merrill Lynch 401K (Stutler Strategies, Inc.).

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: Yes, I will continue my business operations with 
Stutler Strategies, Inc.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: I will recuse myself, when necessary and as requested by the 
Board, on issues that may pose a conflict of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: Driving Under the Influence, 1989. Pled 
no contest to charge.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: Driving Under the Influence, 1989. Pled 
no contest to charge.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    resume of denver j. stutler, jr.
Profile
  <bullet> Results-focused administrator with an in-depth understanding 
        of the developing needs of Florida's transportation 
        infrastructure based on expertise in civil engineering, 
        experience in positions of public trust, respect for sound and 
        ethical business practices, and knowledge of environmental 
        issues impacting roads, bridges, and related structures.

  <bullet> Awareness of the dynamic interplay between local, state, and 
        Federal Governments and resulting influences on the evaluation, 
        funding, design, permitting, and execution of cost-efficient 
        projects that improve transportation resources and promote 
        economic development while planning for the future, managing 
        growth, and assuring public safety.

  <bullet> Ability to forecast issues, fully research facts, formulate 
        forward-thinking solutions, and communicate with diverse groups 
        and individuals to recognize and progress toward unified goals 
        reflective of the organizational mission.
Core Strengths


  Accountability   Budget & Cost      Change            Communications
                    Control            Management
  Crisis           Contract           Human Resources   Information
   Containment      Administration                       Management
  Negotiations     Problem Solving    Project           Regulatory
                                       Management        Compliance
  Rulemaking       Strategic          Systems Thinking  Team Dynamics
                    Planning


Career Progression
    Secretary, Department of Transportation, State of Florida, 
Tallahassee, Florida, July 2005-January 2007.

  <bullet> Chief Executive of state agency responsible for 
        transportation (airports, seaports, rail, roadway and transit) 
        in Florida with an annual budget of $9.1 billion and 8,500 
        employees (13,500 including direct contractors).

  <bullet> Developed strategy for the investment of additional 
        commitment of $7.5 billion over 10 years.

  <bullet> Responsible for meeting Federal, state and local regulations 
        and policies.

  <bullet> Negotiated complex negotiations to achieve transportation 
        solutions for the mobility of people and goods.

  <bullet> Encouraged partnerships with industry and consultants.

  <bullet> Worked with Legislature to develop transportation policy.

    Chief of Staff (August 2003-June 2005); Deputy Chief of Staff (June 
2002-August 2003); Executive Office of Governor Jeb Bush, State of 
Florida, Tallahassee, Florida, June 2002-June 2005.

  <bullet> Optimize the effectiveness of the state's chief executive, 
        demonstrating flexibility in meeting non-stop demands, 
        addressing new challenges, and anticipating needs to provide 
        appropriate data, resources, and assistance.

  <bullet> Serve as liaison to Cabinet officers, department heads, 
        legislators, and gubernatorial appointees, adeptly managing a 
        continuous stream of information while transitioning between a 
        complexity of topics.

  <bullet> Apply knowledge of state government, critical thinking 
        skills, and administrative experience to advance all facets of 
        the Governor's agenda, implement change, and embed a cohesive 
        vision throughout all executive agencies.

  <bullet> Direct the operations of the office that oversees an annual 
        state budget of over $64 billion and employs 250 staff.

  <bullet> Work in partnership with the Communications Office to 
        develop communications strategies and public information on 
        materials on key issues to ensure clarity in messages that 
        reflect the intent of the administration.

  <bullet> Communicate with all of Florida's state agencies to assist 
        in assessing staffing levels, defining needs for senior 
        management positions, and participating in recruiting, 
        screening, and hiring decisions.

  <bullet> Educate, develop, mentor, and motivate staff to develop 
        leadership skills, inspire enthusiasm, instill a team mindset, 
        and promote professionalism in behavior, communication, and 
        attitudes as public representatives.

    Chief of Staff, Department of Environmental Protection (DEP), State 
of Florida, Tallahassee, Florida, April 1999-June 2002.

  <bullet> Provided executive support to the Secretary of DEP in 
        managing the operations of an agency with 4,000<plus-minus> 
        staff, a $2<plus-minus> billion annual budget, and 
        accountability for overseeing Florida's environment and natural 
        resources.

  <bullet> Participated in preparing the legislative budget request, 
        providing financial oversight to optimize accountability, 
        developing policies and procedures, and assuring compliance 
        with statutory and legislative requirements.

  <bullet> Applied knowledge of the agency's mission and the state's 
        vision to advise and assist DEP's leadership, the Governor's 
        Office, legislators, local governments, related local and 
        Federal agencies, and other stakeholders.

  <bullet> Maintained awareness of existing and emerging issues calling 
        for regulatory, legislative, and administrative attention 
        regarding air, water, and waste, as well as the acquisition, 
        management, and use of state-owned lands.

  <bullet> Managed high-profile, sensitive issues with state-wide, 
        regional, and multi-state implications, which included growth 
        management, permitting and participating in joint negotiations 
        with neighboring states on water supplies.

  <bullet> Compiled and synthesized complex information, formulated 
        realistic solutions, and developed written and verbal reports 
        that utilized valid data to develop alternatives and facilitate 
        timely decisionmaking and implementation.

    Principal--Civil Engineer--Project Manager, Camp, Dresser & McKee, 
Maitland, Florida, January 1997-April 1999; July 1989-March 1995.

  <bullet> Demonstrated technical expertise and administrative skill 
        that earned advancement from entry-level Project Engineer to 
        Project Manager, ultimately assuming executive leadership role 
        as a principal of the firm.

  <bullet> Had bottom-line responsibility for assuring quality and 
        profitability of projects undertaken in Florida.

  <bullet> Participated in developing new business, delivering 
        marketing presentations, and preparing cost estimates, 
        specifications, and bid/proposal packages to secure contracts 
        for municipal road, sewer, and water projects.

  <bullet> Gained first-hand experience in project design, permitting, 
        and management; provided oversight and resolved obstacles to 
        meet deadlines, maintain safety, limit risk, and achieve client 
        satisfaction.

    Partner--Civil Engineer, Eco-systems Land Mitigation Company, 
Winter Park, Florida, April 1995-December 1996.

  <bullet> Played a role in developing the concept and creating the 
        plan to co-found and develop a startup venture that was on the 
        leading edge, as one of the first wetlands mitigation banking 
        concerns in the U.S.

  <bullet> Promoted the concept of wetlands mitigation banking, 
        presenting Florida with an alternative approach to 
        Environmental restoration that stressed regional systems as 
        part of an ecosystem approach.

  <bullet> Cultivated strategic relationships serving as a liaison to 
        key contacts at the local, state, and Federal levels:

    <bullet> Contributed to an intensive effort that resulted in the 
            passage of new legislation by the 1996 Florida Legislature; 
            appeared before a U.S. Senate Committee to provide 
            testimony on wetlands mitigation banking.

    <bullet> Managed communication with representatives of various 
            Federal and state permitting agencies such as the, U.S. 
            EPA, Florida Department of Environmental Protection, and 
            the Water Management Districts.

    <bullet> Prepared and executed the sales and marketing strategy by 
            identifying potential buyers of mitigation credits.
Education
        University of Central Florida, Orlando, Florida.

        Master of Science in Civil Engineering, 1989.

        Bachelor of Science in Civil Engineering, 1987.
Specialized Training
        School of Law, Harvard University, Cambridge, Massachusetts.

        Negotiation Skills (Advanced & Basic)
Licenses & Certifications
        Professional Engineer (#46713), State of Florida, 1993-present.
Affiliations
        UCF College of Engineering Dean's Council, Member, 1997-2002.

        American Water Resources Association, Member, 1990-1999.

        Florida Engineering Society, Member, 1989-1999.

        American Society of Civil Engineers, Member, 1986-1999.
Professional Honors
        UCF Alumni Professional Achievement Award, College of 
        Engineering & Computer Science, Recipient, 2003.

        J.P. McMullen Award, Jaycees Outstanding Young Floridian, 
        Recipient, 2003.

        United States Senator Connie Mack, 105th Congress, Fellow, 
        1997-1998.
Related Activities
    Engineering Ministries International, Volunteer, 1994.

        Participated in a service mission to depressed communities in 
        Zaire.

    North Atlantic Treaty Organization (NATO), 1994.

        Participated in the Degradation of River Basins Conference in 
        Vienna, Austria.

    The Chairman. I thank you, sir.
    And now may I recognize Dr. Francis Mulvey.

          STATEMENT OF HON. FRANCIS P. MULVEY, Ph.D.,

                  RENOMINATED TO BE A MEMBER,

                  SURFACE TRANSPORTATION BOARD

    Dr. Mulvey. Thank you, Mr. Chairman, members of the 
Committee.
    I also want to thank the Senate Majority Leader, Mr. Reid, 
of Nevada, for recommending me to the President for 
renomination and to President Bush for renominating me for this 
position.
    I also want to thank my wife of 33 years, Petra, who is 
here today to support me, as she has over all the years, and my 
Chief of Staff, Jamie Rennert, and my Administrative Assistant, 
Judy Leader, who are also in the audience today.
    I have not appeared before this Committee since my 
appointment to the Board in 2004, although twice last year I 
testified, both orally and in writing, before the House 
Committee on Transportation and Infrastructure concerning 
issues before the Surface Transportation Board. I have now been 
a Member of the Board since 2004. Before joining the Board, I 
held a variety of government positions, both on the Hill and at 
various Federal and State agencies. Throughout my career of 
nearly 40 years, I have been intimately involved in 
transportation economics and regulation.
    As a member of the Board, I have applied my experience in 
economics and public policy. I have found the work there both 
challenging and rewarding, and I believe I have made a real 
contribution to a balanced regulatory approach.
    I have not always been in the majority. For example, I wish 
the Board had gone further in addressing the competitive 
aspects of so-called ``paper barriers.'' But, I believe that, 
overall, the agency has, since I've arrived, made significant 
strides in fairly addressing the needs of all stakeholders in 
its decisions, in general, and on real competition in service 
matters, in particular. Having said that, I recognize we still 
have a ways to go.
    We have held hearings on a number of specific action items, 
as well as on items of broader interest, such as the state of 
rail infrastructure. Through our open public processes, we have 
issued several significant decisions. And, to name just a few, 
we have required that the fuel surcharges levied by the 
railroads be tied to actual fuel usage, and not just levied on 
those that were already paying the highest rates because they 
were captive. We have streamlined the large rate case process, 
and revamped our procedures for small rate cases, to try to 
make it easier for small shippers to gain relief. We have also 
been aggressive in doing our part to see that entities handling 
municipal solid waste are not able to inappropriately evade 
regulation. Although, again, dissenting from the majority, I 
would have preferred that our preemption decision had been more 
narrowly drawn in the New England Trans-Rail Case. And we have 
made substantial headway in redefining how we calculate the 
railroads' cost of capital.
    I believe there are certain issues that will require our 
ongoing attention over the new few years. In addition to paper 
barriers, more generally, I am concerned about the state of 
competition in the railroad industry and the Board's merger 
review process. I am concerned about what might happen if 
hedge-fund investment in the railroad industry were to 
escalate, and such a fund attempted to buy a carrier and divest 
a railroad's assets, to the detriment of the shipping public.
    Given the recent boom in traffic, I am concerned about the 
investment in infrastructure, and I think we need to look at 
different ways of encouraging investment in the railroad plant.
    I think the Board has to be nimble in adjusting to changing 
times. For example, while I do not envision a return to the 
pre-Staggers days of heavy-handed regulation, it may be that 
the agency should take a look at its existing broad exemptions 
from regulation to see if those exemptions are still warranted. 
Things change, and many of these exemptions were sought and 
granted in the 1980s, when the transportation landscape was 
quite different from what it is today.
    I will also be particularly focused on ensuring that the 
Board make full use of its investigatory and enforcement powers 
to prevent the abuse of our processes. And I am interested in 
scrutinizing our information-gathering and data-analysis 
systems to ensure that integrity and accuracy in our rail cases 
and other decisions continues.
    I believe, as a member of the STB, my record with the STB 
demonstrated my commitment to advancing the public interest. I 
look forward to continuing to serve the public in that 
capacity. If confirmed, I look forward to continuing to work 
with this Committee, other Members of Congress, and all 
interested parties as we tackle the many important 
transportation issues facing our Nation.
    Thank you for the opportunity to testify today, and I'll be 
happy to answer any questions that you have.
    [The prepared statement and biographical information of Dr. 
Mulvey follow:]

   Prepared Statement of Hon. Francis P. Mulvey, Renominated to be a 
                  Member, Surface Transportation Board
    My name is Francis P. Mulvey, and I am a Member of the Surface 
Transportation Board. I am appearing at the request of the Committee to 
discuss my renomination to the Board. I have not appeared before this 
Committee since my appointment to the Board in 2004, although twice 
last fall I testified, both orally and in writing, before the House 
Committee on Transportation and Infrastructure, Subcommittee on 
Railroads, Pipelines, and Hazardous Materials, concerning the issues 
before the Board.
    I have been a Member of the STB since June 2004. Before I joined 
the Board, I held a variety of government positions, both on the Hill 
and at various Federal and state agencies. Throughout my career of 
nearly 40 years, I have been intimately involved in transportation 
economics and regulation.
    As a Member of the STB, I have applied my experience in economics 
and public policy. I have found the work challenging and rewarding, and 
I believe I have made a real contribution to a balanced regulatory 
approach. I have not always been in the majority--for example, I wish 
the Board had gone farther in addressing the competitive impacts of so-
called ``paper barriers''--but I believe that, overall, the agency 
since I arrived has made significant strides in fairly addressing the 
needs of all stakeholders in its decisions in general, and on rail 
competition and service matters in particular.
    We have held hearings on all sorts of specific action items, as 
well as more general items of broad interest such as the state of the 
rail infrastructure. Through our open, public processes, we have issued 
several significant decisions. To identify just a few: we have required 
that fuel surcharges be pegged to actual fuel usage; we have 
streamlined the large rate case process and revamped the procedures for 
small rate cases to make it easier for small shippers to gain relief; 
we have been aggressive in doing our part to see that entities handling 
municipal solid waste are not able to inappropriately evade regulation 
(although I wish we had defined preemption more narrowly in the ``New 
England Transrail'' case); and we have made substantial headway in 
redefining how we calculate the railroad industry's cost of capital.
    I think there are certain issues that will require particular 
attention in the coming years. In addition to the ``paper barriers 
issue,'' more generally I am concerned about the state of competition 
in the railroad industry and the Board's merger review process. I am 
concerned about what might happen if hedge fund investment in the 
railroad industry were to escalate and such a fund attempted to buy a 
carrier and divest its assets to the detriment of the shipping public. 
Given the recent boom in traffic, I am concerned about investment in 
infrastructure, and I think we will need to look at different ways of 
encouraging investment in the railroad plant.
    And I think the Board has to be nimble in adjusting to changing 
circumstances. For example, although I do not envision a return to the 
days of heavy regulation, it may be that the agency should take a look 
at its existing broad exemptions to see if they are all still 
warranted. Things change; many of these exemptions were sought and 
granted in the 1980s when the transportation landscape was quite 
different from what it is today, and we ought to be sure that 
exemptions that were justified back then are still appropriate today. I 
will also be particularly focused on ensuring that the Board makes full 
use of its investigatory and enforcement powers to prevent abuse of our 
processes. And, I am interested in scrutinizing our information 
gathering and data analysis on the rail industry, to ensure the 
integrity and accuracy of our rate case and other decisions.
    I believe that my record as a Member of the STB demonstrates my 
commitment to advancing the public interest. I look forward to 
continuing to serve the public in that capacity. If confirmed, I also 
look forward to continuing to work with the Committee, other Members of 
Congress, and all other interested parties as we tackle the many 
important transportation issues that confront us.
    Thank you for the opportunity to testify today. I will be happy to 
answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Francis 
Patrick Mulvey.
    2. Position to which nominated: Commissioner, Surface 
Transportation Board.
    2. Date of Nomination: November 30, 2007.
    3. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 395 ``E'' Street S.W., Suite 1290, Washington, DC 
        20423.

    4. Date and Place of Birth: May 5, 1944; New York City (Astoria, 
Queens) NY.
    5. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Petra Karolina Mulvey, currently an independent consultant for 
        Ferris Baker Watts working out of our home (spouse); Conor 
        Francis Mulvey (29) (child).

    6. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Science, New York University 1966 (attended 9/62-6/
        66).

        Master of Arts, University of California, Berkeley 1968 
        (attended 1/67-6/68).

        Doctor of Philosophy, Washington State University 1974 
        (attended 9/70-6/72).

    7. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Commissioner, U.S. Surface Transportation Board, Washington, 
        D.C. (June 2004-present).

        Staff Director, Railroad Subcommittee, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives, Washington D.C. (Also served as Staff Director 
        for Hazardous Materials and Pipelines, Committee on Highways 
        and Transit, Committee on Transportation and Infrastructure, 
        U.S. House of Representatives) (2/00-6/04).

        Deputy Assistant Inspector General for Rail, Transit and 
        Special Programs, U.S. Department of Transportation, 
        Washington, D.C. (3/99-2/00).

        Adjunct Faculty Member, RH Smith School of Business and Public 
        Policy, College Park, MD (9/92-12/03).

        Assistant Director, U.S. General Accounting Office, Washington 
        D.C. 
        (10/85-3/99)

        Director for Economic Research, New York State Legislative 
        Commission on Solid Waste Management, Albany, NY (11/84-10/85).

        Programs Manager, National Academy of Sciences, Transportation 
        Research Board, Washington, D.C. (3/83-10-84).

        Vice President for Research, American Bus Association, 
        Washington, D.C. 
        (11/82-3/83).

        Assistant Professor, Department of Economics, Northeastern 
        University, Boston, MA (9/77-1/82).

        Consultant, National Transportation Policy Study Commission, 
        Washington, D.C. (8/77-3/79, concurrent while teaching).

        Driver, Yellow Cab Company, Boston, MA (7/77-8/77).

        Assistant Professor, Department of Economics, Wheaton College, 
        Norton, MA 
        (9/75-6/77).

        Consultant, Harbridge House, Boston, MA (9/75-1/77, concurrent 
        while teaching).

        Assistant Professor, Bowling Green State University, Bowling 
        Green, OH 
        (9/73-6/75).

        Consultant, Wisconsin State Department of Transportation, 
        Madison, WI (2/74-6/75, concurrent position while teaching).

        Economist, U.S. Department of Transportation, Federal Railroad 
        Administration (7/72-6/73).

        Teaching Assistant, Washington State University, Pullman, WA 
        (9/70-6/72).

        Instructor, Golden Gate University, San Francisco, CA (1/67-9/
        69).

        Supervisor for Claims, Continental Insurance Company, San 
        Francisco, CA 
        (5/70-9/70).

        Driver, Yellow Cab Company, San Francisco, CA (3/70-5/70).

        Management Consultant, George S. May Company, San Francisco, CA 
        (10/69-3/70).

        Economist, California Blue Cross/Blue Shield, San Francisco, CA 
        (10/68-12/68).

        Claims Adjuster Trainee, Metropolitan Life Insurance Company, 
        San Francisco, CA (9/66-12/66).

        Researcher, NASA/Oakland Budget Project, Berkeley, CA (6/669/
        66).

    8. Attach a copy of your resume. Not applicable.
    9. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Transportation Research Forum (President, Washington Chapter 
        (1999), Vice President Programs 1997), Council Member for 
        National TRF (2000-2001).

        Transportation Research Board (Member Committee on Aviation 
        Economics (1995-2000), Committee on Travel and Tourism Research 
        Needs 1996-1997), Panel on ADA Compliance for Intercity Busses 
        (1999), FAA Scholarship Awards Panel).

    12. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: Not Applicable.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        1999--Comptroller General's Team Award.

        1998--Assistant Comptroller General, Award HEHS Division.

        1997--Special Recognition for Outstanding Performance HEHS 
        Division.

        1997--Special Commendation Award HEHS Division.

        1995--Special Commendation Award RCED Division.

        1994--Special Commendation Award RCED Division.

        1994--Special Recognition for Outstanding Performance RCED 
        Division.

        1994--Outstanding Team Award RCED Division.

        1991--Special Recognition for Outstanding Performance RCED 
        Division.

        1989--Special Recognition for Outstanding Performance RCED 
        Division.

        1988--Outstanding Achievement Award RCED Division.

        1962--New York State Regents' Scholarship and Incentive Award.

        1962--New York University Full Tuition Scholarship (4 years).

        1958--U.S. Post Office Holy Name Society Scholarship to St. 
        Francis Xavier Military Academy.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Publications

        International Airline Alliances: A Study of Codesharing's 
        Impact on Airlines and Consumers'' (with T. Hannegan), Journal 
        of Air Transport Management, London, Spring 1996.

        Batteries in New York's Municipal Solid Waste Stream: A Report 
        to the Commissioner of the New York State Department of 
        Environmental Conservation, SS&B-Taconic Resources, Albany, NY, 
        September 1988.

        ``Demand and Cost Considerations in Domestic and International 
        Recycling Programs'', Waste Age, Washington, D.C., 1987.

        The Economics of Recycling, New York State Legislative 
        Commission on Solid Waste Management, Albany, NY, 1986.

        ``New Directions in Materials Reclamation'', Journal of Natural 
        Resources and Technology, Vol. 14, No. 4, University of 
        Pennsylvania, Philadelphia, PA, December 1985.

        The 55 mph Speed Limit: A Decade of Experience (with D. Kulash 
        and S. Godwin), National Academy of Sciences, National Research 
        Council, Washington, D.C., September 1984.

        The Safety Benefits and Costs of Using Citizen-Band Radios on 
        Intercity Buses (with L. Griffith and M. Heckard), National 
        Academy of Sciences, National Research Council, Washington, 
        D.C., August 1984.

        ``Performance Trends of Small Intercity Motor Coach Firms 1972-
        1981'', Papers and Proceeding of the Transportation Research 
        Forum, New Orleans, LA, October 1982.

        ``Public Agencies and Private Carriers: Competition or 
        Cooperation'', Private Sector Role in Public Transportation, 
        Transportation Research Board, Washington, D.C., August 1982.

        ``Unfair Competitive Marketing Practices in Intercity Surface 
        Transportation'', Papers and Proceedings of the Transportation 
        Research Forum, San Francisco, CA, November 1981.

        Amtrak: The First Decade, University of Iowa Press, Iowa City, 
        IA, 1981.

        A Taxpayer's Perspective on Amtrak, National Taxpayers' Union, 
        Washington, D.C. July 1981.

        ``Amtrak Versus Intercity Bus'', Challenge, Vol. 23, No. 3, 
        July/August 1980.

        ``Passenger Transportation in the Year 2000'', State 
        Transportation Issues and Actions, Special Report No. 189. 
        Transportation Research Board, Washington, D.C., 1980.

        ``Interurban Helicopter Services: A Comment'', Journal of the 
        New England Business and Economics Association, Boston, MA, 
        1980.

        ``Amtrak: A Cost-Effective Approach'', Transportation Research, 
        Vol. 13, October 1979.

        Intermodal Impacts of Great Lakes/St. Lawrence Seaway System 
        Season Extension: A Report to the U.S. Army Corps of Engineers, 
        Transportation and Economic Research Associates, Arlington, VA, 
        1979.

        Amtrak: An Experiment in Rail Service, National Transportation 
        Policy Study Commission, Washington, D.C., September 1979.

        ``Capital Formation in the Airline and Railroad Industries'', 
        National Transportation Policy Study Commission Special Report 
        No. 1: Issues in Transportation, Washington, D.C., May 1978.

        ``Consolidation of Transportation Regulatory Agencies'', 
        National Transportation Policy Study Commission Special Report 
        No. 1: Issues in Transportation, Washington, D.C., May 1978.

        Intercity Domestic Transportation for Passengers and Freight: A 
        Report to the U.S. Senate Committee on Commerce, Science, and 
        Transportation (with A. LaMond), Washington, D.C., 1977.

        The Northeast Corridor High Speed Rail System: Selected Impacts 
        on Alternative Modes--a Report to the U.S. DOT Transportation, 
        Systems Center (with D. Hayman and G. O'Donohoe), Harbridge 
        House, Boston, MA, 1975.

        The Future of Rail Passenger Services in Wisconsin, Wisconsin 
        State Department of Transportation, Madison, WI, August 1975.

        The Economic Future of Amtrak (doctoral dissertation), 
        Washington State University, Pullman, WA, August 1974.

    Speeches

    As a Member of the Surface Transportation Board:

        ``Testimony on Preemption of State and Local Laws on Railroad 
        Transloading of Solid Waste before the U.S. House of 
        Representatives; Committee on Transportation and 
        Infrastructure; Subcommittee on Railroads, Pipelines, and 
        Hazardous Materials; Hearing, Rayburn Building, October 16, 
        2007.

        ``Testimony of Commissioner Francis P. Mulvey, Surface 
        Transportation Board, Before the U.S. House of Representatives 
        Committee on Transportation and Infrastructure on Railroad 
        Competition Issues, September 20, 2007.

        ``Innovations in Transportation infrastructure Financing;'' 
        Inland Northwest Regional Summit; Spokane, WA; September 20, 
        2007.

        ``Coal, Railroads & the Surface Transportation Board;'' 
        National Coal Transportation Association; Denver, CO, September 
        11, 2007.

        ``Creating Competition or Repeating History: Is Staggers 
        Staggering?'' Midwest Regional & Short Line Railroad 
        Conference; Duluth, MN, July 16, 2007.

        ``The STB and the Nation's Railroads'', Transportation Research 
        Forum, Boston, MA, March 17, 2007.

        ``Public Sector Role in Transportation Infrastructure 
        Financing'', Food Shippers of America, Palm Springs, CA, March 
        6, 2007.

        ``The STB and the Nation's Railroads'', Industrial Energy 
        Consumers of America, Washington, D.C., Oct. 11, 2006.

        ``The SIB, Shippers and Railroad Capacity'', Southwest 
        Association of Rail Shippers, Scottsdale, AZ, Oct. 5, 2006.

        Panelist, Transportation Investor Conference, Merrill Lynch 
        Global Transportation Conference, New York, NY, June 15, 2006.

        ``The S.T.B. and the Nation's Railroads'', American Forest and 
        Paper Association, Washington, D.C., May 23, 2006.

        ``The Forest Products Industry and the Nation's Railroads'', 
        American Forest and Paper Association, 129th Annual Paper Week, 
        New York, NY, April 11, 2006.

        ``Optimal Investment in Rail Infrastructure: The Divergence of 
        Public and Private Interests'', Electric Utility Consultants 
        Conference, Mesa, AZ, March 28, 2006.

        ``Shippers Taking Charge in a Capacity Constrained Environment: 
        The Role of the STB in Railroad Regulation'', Southwest 
        Association of Rail Shippers, San Antonio, TX, February 23, 
        2006.

        ``The STB and the Regulation of Coal Transportation in a 
        Capacity-Constrained Environment'', EUCI Coal Transportation 
        Workshop, St. Louis, MO, November 10, 2005.

        ``Transportation Challenges: Financing Capacity'' 92nd Annual 
        Meeting, Treasury and Finance Division, Association of American 
        Railroads, Phoenix, AZ, November 7, 2005.

        ``Update on the STB and Rail Freight Issues'' Western Coal 
        Traffic League, Fall Meeting, Washington, D.C., October 20, 
        2005.

        ``Rail Transportation Issues and the Role of the Surface 
        Transportation Board'' NASSTRAC Fall Conference, Baltimore, MD, 
        September 27, 2005.

        ``Railroads and Railroad Regulation in a Capacity Constrained 
        Environment'' Transportation Research Forum, New York City, NY, 
        September 8, 2005.

        `` `The Transportation Capacity Problem' Approaches to 
        Congestion Relief'' NMFTA/NCC Conference, San Francisco, CA, 
        August 9, 2005.

        ``Railroads and Capacity Problem: Public/Private Approaches'' 
        Fuel Management Strategies Conference, Denver, CO, June 21, 
        2005.

        ``The STB and the Railroads in a Capacity Constrained 
        Environment'', North American Fertilizer Transportation 
        Conference, Mont Tremblant, Quebec, June 13, 2005.

        ``The Outlook for Amtrak and the Role of the STB'', National 
        Association of Railroad Passengers Annual Meeting, Silver 
        Spring, MD, April 23, 2005.

        Speech to Rail Forum, National Industrial Transportation League 
        Spring Policy Forum, Arlington, VA, April 19, 2005.

        ``U.S. Freight Railroads and the Capacity Problem'', ODU 
        Maritime Speakers Series at Nauticus, Norfolk, VA, April 4, 
        2005.

        ``The Surface Transportation Board and the Nation's 
        Railroads'', Pacific Northwest Association of Rail Shippers, 
        Portland, OR, February 17, 2005.

        ``Issues Facing the Surface Transportation Board'', Council of 
        Supply Chain Professionals, Baltimore, MD, February 8, 2005.

        ``Regulatory Issues Facing the Surface Transportation Board'' 
        NGC/TEGMA, Cancun, MX, February 5, 2005.

        ``The Current State of the Nation's Railroads'' Regional 
        Freight Mobility Roundtable, Seattle, WA, November 5, 2004.

        ``Railroad Industry Competition, Structure and Investment'' 
        Roundtable on Transportation Policy, Northwestern University, 
        Evanston, IL, October 8, 2004.

        ``The Changing Face of the STB'', ASLRRA Eastern Regional 
        Meeting, Jersey City, NJ, October 1, 2004.

        Speech before American Plastics Council--Logistics Committee, 
        Arlington VA, September 23, 2004.

        Keynote Address, National Coal Transportation Association 
        Annual Meeting, Denver, CO, September 21, 2004.

    Speeches Prior to Joining the STB

        ``Rail Safety Legislation in the 108th Congress,'' Association 
        of American Railroads Annual Legislative Conference, White 
        Sulphur Springs, WV, July 2, 2003.

        ``Status of High-Speed Rail Legislation in the 108th 
        Congress,'' High Speed Ground Transportation Association, 
        Anaheim, CA, May 13, 2003.

        ``Infrastructure Funding Sources for Our Nation's Freight 
        Railroads,'' Rail Supply Institute, Jacksonville, FL, April 23, 
        2003.

        ``Amtrak: Past, Present and Prospects,'' Public Transportation 
        Policy Forum, Society of Government Economists, Washington, 
        D.C., Feb. 7, 2003.

        ``Status of Rail Passenger Service Legislation,'' States for 
        Passenger Rail Annual Meeting, Washington, D.C., Jan. 12, 2003.

        ``Rail Transportation and the Reauthorization of TEA-21,'' 
        American Public Transit Association, Commuter Rail Conference, 
        Las Vegas, NV, Sept. 22, 2002.

        ``Panel on Railroad Legislation in the Current Congress,'' 
        American Association of Short Line and Regional Railroads, 
        Cooperstown, NY, July 13, 2002.

        ``Panel on Railroad Reregulation,'' Association of American 
        Railroads Annual Legislative Conference, White Sulphur Springs, 
        WV, July 2, 2002.

        ``Panel on Railroad Legislation in the Current Congress,'' 
        American Association of Short Line and Regional Railroads, West 
        Point, NY, July 14, 2001.

        ``Amtrak and High Speed Rail,'' High Speed Ground 
        Transportation Association Annual Meetings, Milwaukee, WI, May 
        18, 2001.

        ``Passenger Rail Agenda and Prospects,'' National Council of 
        State Legislators, Meeting of the Rail Working Group, 
        Washington, D.C., May 12, 2001.

        ``Prospects for Pipeline Safety Legislation, National League of 
        Cities, Washington, D.C., March 12, 2001.

        ``Reauthorization of the STB and Captive Shipper Issues,'' 
        Western Coal Traffic League, Washington, D.C., Oct. 5, 2000.

        ``Panel on Railroad Legislation in the Current Congress,'' 
        American Association of Short Line and Regional Railroads, 
        Hershey, PA, July 15, 2001.

        ``Panel on Railroad Economics and Finance,'' Association of 
        American Railroads Annual Legislative Conference, White Sulphur 
        Springs, WV, July 6, 2000.

    (I gave several speeches on Social Security and Pension Reform 
Issues while I was part of GAO's Health and Human Services Division, 
but I have no sources on their exact subject matter or the locations 
and dates. However, they were all discussions about GAO's ongoing 
studies.)

        ``Federal Perspective on High Speed Rail Investments,'' Railway 
        Age Conference on Mixed Freight and Passenger Services, 
        Washington, D.C., Nov. 10, 1994.

        ``Geopolitics and Anti-trust Policy,'' International Aviation 
        Symposium, Phoenix, AZ, April 13, 1994.

        ``Comparing Transport Regulatory Reform in Canada and the 
        United States,'' Tenth International Logistics Congress, 
        Toronto, ONT, Canada, June 21, 1993.

        ``Market for Airline Services: The Changing Competitive 
        Framework,'' Session Chair and Organizer, Annual Meetings of 
        the Transportation Research Board, Washington, D.C., Jan. 1993.

        ``International Air Transportation Issues,'' International 
        Chapter of the Transportation Research Forum, Washington, D.C., 
        July 1992.

        ``Airline Concentration and Competition at the Nation's 
        Airports,'' University of Denver/Smithsonian Institute 
        Conference on Airlines, Airports, and Aviation, Washington, 
        D.C., May 1992.

        ``High Speed Ground Transportation Systems,'' GAO Annual 
        Technical Conference, Herndon, VA, April 1991.

        ``Airline Fares and Market Concentration in the U.S.,'' 
        Transportation Roundtable, National Press Club, Washington, 
        D.C., March 1991.

        ``GAO Performance Airline Audits--Fares, Schedules, and On-time 
        Performance,'' Institute of Internal Auditors, National Press 
        Club, Washington, D.C., March 1991.

        ``Railroad Competitiveness,'' Session Chair and Organizer, 
        Annual Meetings of the Transportation Research Forum, Long 
        Beach, CA, Oct. 1990.

        ``Airline Competition'' Session Chair and Primary Discussant, 
        Annual Meetings of the Transportation Research Board, 
        Washington, D.C., Jan. 1990.

        ``Maximum Speed Limit Compliance Formulae,'' Western 
        Association of State Highway and Transportation Officials, 
        Phoenix, AZ, March 1988.

        `` `Recycling Cost Impact Guidelines,' Conference on Minimizing 
        Solid Waste Tipping Fees,'' National League of Cities, San 
        Jose, CA, Jan. 1988.

        ``The Economics of Hazardous and Solid Waste Management 
        Options,'' Session Chair and Principal Discussant, Conference 
        on Solid Waste Management and Materials Policy, NY, Jan. 1988.

        ``Issues in the Transborder Trucking of Hazardous Waste,'' 
        National Solid Waste Management Association Hazardous Waste 
        Haulers Conference, Detroit, MI, June 1987.

        ``The Intercity Bus Industry,'' Session Chair and Primary 
        Discussant, Annual Meetings of the Transportation Research 
        Forum, Amelia Island, FL, Nov. 1985.

        ``New York City's Recycling Plan,'' Session Moderator, 
        Conference on Materials Recycling and Composting, Albany, NY, 
        Oct. 1985.

        ``Comparative Economics of Alternative Methods of Solid Waste 
        Management,'' testimony before the California Commission on 
        Natural Resources, Sacramento, CA, Oct. 1985.

        ``Preliminary Findings on the Safety Benefits and Costs of the 
        55 mph Speed Limit,'' Annual Meetings of the Transportation 
        Research Forum, Washington, D.C., Oct. 1983.

        ``Research and Data Needs of the Intercity Bus Industry,'' 
        Annual Meetings of the Transportation Research Board, 
        Washington, D.C., Jan. 1983.

        ``The Intercity Bus Industry Under Deregulation,'' Center for 
        Transportation Studies of the Massachusetts Institute of 
        Technology, Cambridge, MA, Nov. 1982.

        ``The Intercity Bus Industry and Tourism,'' Session Chair and 
        Primary Discussant, Annual Meetings of the Transportation 
        Research Forum, New Orleans, LA, Oct. 1982.

        ``Intermodal Considerations in Determining Rail Passenger 
        Subsidies,'' testimony before the Senate Committee on Commerce, 
        Science, and Transportation Hearings on Amtrak Reauthorization, 
        Washington, D.C., March 1981.

        ``Predatory Pricing in Intercity Surface Passenger Transport,'' 
        testimony prepared for Greyhound Lines, Inc. in Interstate 
        Commerce Commission Docket No. 37825-F, Washington, D.C., 
        February 1980.

        ``The Role of Intercity Rail Transport in the Modern Travel 
        Environment,'' testimony before the Senate Committee on 
        Commerce, Science, and Transportation, Washington, D.C., March 
        1979.

        ``Transportation Economics,'' Primary Discussant, Annual 
        Meetings of the Western Economics Association, Anaheim, CA, 
        June 1977.

        ``Planning Intercity Transportation Services'', Annual Meetings 
        of the Western Economics Association, San Francisco, CA, June 
        1976.

        ``Environmental Considerations in the Pricing of Interurban 
        Transport,'' Annual Meetings of the Ohio Association of 
        Economists and Social Scientists, Columbus, OH, April 1975.

        ``The Demand for Intercity Transportation Services,'' Annual 
        Meetings of the Southwestern Economics Association, San 
        Antonio, TX, March 1975.

        ``The Role of Demand Modeling in Forecasting Modal Market 
        Shares,'' testimony before the Interstate Commerce Commission 
        in Ex Parte 277--The Adequacy of Intercity Rail Passenger 
        Service, Washington, D.C., March 1975.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        ``Testimony on Preemption of State and Local Laws on Railroad 
        Transloading of Solid Waste before the U.S. House of 
        Representatives; Committee on Transportation and 
        Infrastructure; Subcommittee on Railroads, Pipelines, and 
        Hazardous Materials; Hearing, Rayburn Building, October 16, 
        2007.

        ``Testimony of Commissioner Francis P. Mulvey, Surface 
        Transportation Board, Before the U.S. House of Representatives 
        Committee on Transportation and Infrastructure on Railroad 
        Competition Issues, September 20, 2007.

        ``Intermodal Considerations in Determining Rail Passenger 
        Subsidies,'' testimony before the Senate Committee on Commerce, 
        Science, and Transportation Hearings on Amtrak Reauthorization, 
        Washington, D.C., March 1981.

        ``The Role of Intercity Rail Transport in the Modern Travel 
        Environment,'' testimony before the Senate Committee on 
        Commerce, Science, and Transportation, Washington, D.C., March 
        1979.

    17. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been serving in this position for the past 3\1/2\ years and 
I believe that I have made an important contribution to the STB's 
mission to promote a financially healthy railroad industry and rates 
for rail movements that are reasonable. I have spent most of my 
professional life in the transportation area. I believe that I have 
brought to the agency an economist's perspective on the role and 
importance of railroads in the national economy. I have more than 30 
years of experience in the transportation field. I have worked on 
transportation and regulatory issues for virtually every mode of 
transportation. I directed numerous GAO studies on the aviation, rail, 
and highway sectors. I am considered a national expert on Amtrak and 
High Speed Rail transport.
    18. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe that as a Member of the Board, I am fully responsible for 
ensuring that proper management and accounting controls are in place. 
As an Assistant Director at the U.S. General Accounting Office (now 
Government Accountability Office) and as a Deputy Assistant Inspector 
General at the U.S. Department of Transportation, I am familiar with 
requirements of the Chief Financial Officer's Act and I have striven to 
uphold the highest standards of financial integrity. At the STB I have 
taken the lead in having the agency update and complete its manual on 
administrative procedures.
    19. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top three challenges facing the STB are: (1) ensuring that the 
rates that captive shippers pay are reasonable and do not undermine 
their global competitiveness, (2) ensuring that railroads earn 
sufficient revenues so that they can reinvest in the rail 
infrastructure to meet the expected growth in demand for rail 
transportation, and (3) ensuring that the quality of rail service 
received by shippers is the best possible commensurate with the rates 
they are paying. At present, rail rates have been increasing for many 
movements following many years of decline. The rail sector has also, 
for the first time in decades, been operating at or near capacity. As a 
result, rates are high and the railroads are often unwilling or unable 
to take on new traffic. However, this runs counter to the national goal 
of shifting more freight traffic from highway to rail. The STB must 
make certain that the railroads are positioned to carry out their 
common carrier obligation to the Nation's shippers.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As a Congressional staff member for the House Transportation and 
Infrastructure Committee before joining the STB it was my job to draft 
legislation and work to secure its passage or to work to defeat 
legislation that the then Ranking Minority Member opposed. Legislation 
under consideration while I was there that affected the STB was a 
proposal to reauthorize the agency.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: I have no conflicts that require resolution.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I have never been disciplined, cited, or subject to a complaint for 
a breach of ethics.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    When I was 19 years old I was cited for climbing a monument in 
Washington Square Park in Manhattan following a party. As I recall, the 
judge dismissed the charges on learning that it was not part of a 
political demonstration.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was sued following a minor traffic accident (no damage to either 
vehicle) after the other party alleged back injuries. Because the other 
party had just had back surgery, he successfully collected (I believe 
around $20,000) from my insurer.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No, never.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No, never.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: I have no additional information to 
offer.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    Since joining the STB and while I was a Congressional staff member 
a Deputy Assistant Inspector General and an Assistant Director with the 
GAO, I have always been very sensitive to the need for timely 
compliance with deadlines for Congressionally requested information and 
I will continue to do so in the future.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures?
    I have always supported protection of whistleblowers from 
retaliation and will continue to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    I will cooperate fully with the Committee in providing witnesses, 
technical experts, and other career employees with knowledge of 
interest to the Congress.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    I am very willing to appear before Congressional committees and I 
have done so on numerous occasions in the past.

    The Chairman. I thank you very much, Dr. Mulvey.
    This Committee is very cognizant of the important roles 
played by our spouses, and you have mentioned your spouses 
here. Mr. Johnson, would you like to introduce your wife?
    Mr. Johnson. Be glad to. My wife, Joyce, is seated right 
here.
    The Chairman. Welcome, ma'am.
    Ms. Naples, your husband?
    Ms. Naples. Yes, my husband, Tom O'Neill, is right here.
    The Chairman. Welcome, sir.
    Mr. Stutler?
    Mr. Stutler. Family's not here. Thank you.
    The Chairman. Dr. Mulvey?
    Dr. Mulvey. My wife, Petra, is sitting right here.
    The Chairman. Welcome.
    Dr. Mulvey, the Surface Transportation Board is usually 
limited to addressing issues or topics brought up in 
proceedings. Do you believe that the Board should have broader 
investigative powers?
    Dr. Mulvey. I do. Powers were somewhat limited in the 
Interstate Commerce Commission Termination Act of 1995. We were 
more limited in initiating our own investigations. Clearly, 
there are cases where it would be helpful, where we hear about 
problems, where we could initiate our own investigations and 
then take actions, as appropriate, to be more proactive and 
less reactive. And, while there are some cases--some areas 
where we have been able to launch our own investigations, we 
are limited in what we can do. We did, for example, in the fuel 
surcharge case, initiate that on our own authority. But, again, 
the relief that we can give, then, is more limited than we 
could if we were granted more investigative authority.
    The Chairman. Do you have any idea how much we would need? 
Because there's obviously a lack of funds.
    Dr. Mulvey. It would depend upon what we had to do. We've 
already pointed out that some of the things that have been 
proposed in legislation--for example, a greater role for us in 
Amtrak--would require that we increase our staff somewhat. But 
I think that the staff that we have now, with maybe only a 
slight increase, could handle significant--more, in terms of 
launching some of these investigations and taking appropriate 
actions than we have, without a significant increase in our 
budget. Our budget's been fairly flat for the last 10 years or 
so, at about $25 million a year.
    The Chairman. Thank you.
    Mr. Johnson, your agency is a relatively new one, and--what 
are your missions now? What are your goals?
    Mr. Johnson. Thank you for the question, Mr. Chairman.
    If confirmed, I have, sort of, three priorities that I am 
looking at. Most of them have been mentioned earlier here 
today. The aging pipeline is of concern, the aging 
infrastructure and the growth--the encroachment and growth, 
that is challenging some of that, needs to be investigated. And 
I think the implementation of PIPES--the PIPES Act--is 
certainly a very high priority.
    Another priority is the aging highway, rail, and air 
infrastructure through which all of our transportation, 
including hazardous materials, goes. And I think that that is 
an area that I will spend some time working on.
    And, as mentioned earlier, I have had some experience in 
international harmonization. I understand the role and the 
benefit of harmonization that will improve safety through 
harmonized regulations and standards worldwide, so that the 
standard--we can learn from some of the standards that may be 
applied here from other parts of the world, where they may 
have--may be safer, or we can use ours to raise the bar 
elsewhere, and provide uniformity and a greater assurance of 
safety throughout the world.
    The Chairman. I thank you very much. Do you have any 
numbers as to how much it might cost to improve the railbeds?
    Mr. Johnson. I--at this point, Mr. Chairman, I do not. I 
will certainly look into that when I get to the--get into the 
position, if confirmed.
    The Chairman. The question I have in mind for the Amtrak 
Board Members was asked by Senator Smith. I'm just curious 
about the problem you brought up, so I'm going to leave it up 
to you to do the questioning on that.
    Senator Stevens?
    Senator Stevens. Mr. Chairman, I welcome Mr. Johnson, 
because I think we probably have an example of aging pipelines 
in our state. We are very conscious of the safety factors, and 
we will look to him for guidance, and I hope that he will be 
able to suggest to Congress if there are any changes in 
existing law that should be considered in order to assure the 
safety and survival of these pipeline systems.
    I note that Senator Lautenberg's here. I don't have a real 
relationship to the Amtrak Board, so I would yield to him.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I appreciate that, Senator Stevens. 
Thank you very much.
    I just want to run through a couple of comments that I had 
prepared and--just to highlight the need that we have for 
infrastructure investment.
    No matter where we look, we see crowding, we see delays, we 
see congestion, we see pollution. And we're not looking at this 
in what I will call--in a holistic manner. Very frankly, I'm 
depending on the Amtrak Board nominees to not just talk about 
the betterment of their financial condition, but the betterment 
of their operation. What do we want from Amtrak, in terms of 
its--it being the third leg--or passenger rail service--the 
third leg in our transportation system? The others are bursting 
at the seams. When you look at highways, and if you look at the 
skyways, they are unable, with their present conditioning, to 
be able to accommodate America's needs.
    And I'd point out--and I learned, just recently--or I 
looked, just recently--at the population growth in this 
country. In 1970, we were 200 million people. Now, 37 years 
later, we're 300 million. The systems were not built to 
accommodate the needs that we have. And when we look at, for 
instance, our bridge deficiencies, they're so obvious. And we 
saw the worst of it in Minneapolis last summer. Airport 
runways, for instance, do not have the best technology on the 
runways to keep our passengers and flight crews safe. Dr. 
Mulvey, you'll be--you've got to look at that as part of your--
the information that your department gathers. And so, as we 
struggle to meet travelers' demands--and I use Amtrak 
frequently, because I found out that a 45-minute flight from 
here to New York or Newark Airport--I live midway between the 
two, in New Jersey--and I find that the 45-minute flight from 
here to New York region airports can take 2 or 3 hours--45-
minute flight.
    So, we're fooling ourselves. We have not invested in Amtrak 
the way it should have been. And, oddly enough, my two 
colleagues who sit at the front of the desk, the Chairman and 
the Vice Chairman, are the furthest from Amtrak that you could 
be and still be in the United States. Senator Smith knows 
differently. He knows the value of Amtrak, and he's seen it 
directly.
    Senator Stevens. I could make, my friend, a suggestion.
    Senator Lautenberg. Do you want a railroad?
    I promised Senator Inouye we'd get him a railroad.
    Senator Stevens. Well there is no link from Fairbanks to 
Canada; otherwise, we could put rail cars through the Alaska 
railroad, the Canadian system, and down into Amtrak. Just 100 
miles.
    Senator Lautenberg. I'd like to discuss that with the 
Chairman of OMB and see what he thinks of that.
    [Laughter.]
    Senator Lautenberg. I've been trying to figure out the way 
to get the railroad to Honolulu. Now, that is a----
    [Laughter.]
    Senator Lautenberg. But, on the serious side of things----
    The Chairman. We're happy with what we have.
    [Laughter.]
    Senator Lautenberg. Yes. The distance from the mainland 
to----
    In any event, Mr. Chairman, I want to ask that my statement 
be--full statement be included----
    The Chairman. Without objection----
    Senator Lautenberg.--in the record.
    The Chairman.--so ordered.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, America's transportation infrastructure is in need of 
repair. Many of our highway bridges--like we saw in Minneapolis last 
summer--are deficient. Airport runways do not have the best technology 
to keep our passengers and flight crews safe. And our passenger rail 
systems have simply been neglected.
    We can no longer ignore our infrastructure needs. We are already 
struggling to meet travelers' demands. And in the future, demands will 
increase--with more cars and trucks, more planes and more people riding 
the rails. We need to invest in our infrastructure and ensure its 
safety and capacity for our country's needs.
    That is the kind of leadership I am looking for from today's 
nominees. Several of these individuals have been nominated to serve on 
Amtrak's Board of Directors. As they know, I am concerned that there is 
no existing law to guide Amtrak and our Nation's passenger rail policy. 
That is why I hope the House will begin working on the Lautenberg-Lott 
Amtrak bill very soon.
    Our bill will lay the tracks for a strong passenger rail network--
one that will bring more balance to our national transportation system. 
It will create a new intercity rail grant program to connect more of 
our towns and cities by rail. And it will provide direction and reform 
to the Amtrak Board. This Committee unanimously supported our bill. I 
look forward to the House's action.
    Now let me talk about two other nominees. First, Commissioner 
Mulvey has been re-nominated to the Surface Transportation Board. I 
welcome this nomination and I hope his service on the Board will 
continue. His is often the lone voice of reason on many important 
issues.
    Second, Mr. Johnson has been named to serve as Administrator of the 
Pipeline and Hazardous Materials Safety Administration. This agency 
needs strong leadership to complete the work outlined in the pipeline 
safety bill we passed last year. I'm disappointed that no action has 
been taken on one provision I wrote regarding new rules protecting 
Americans from hazardous gas leaks in their homes. I am anxious to 
learn of Mr. Johnson's plans for getting that work done.
    I look forward to hearing from our witnesses.

    Senator Lautenberg. And I would ask Mr. Stutler, Ms. 
Naples, Mr. Carper--Mr. Carper, I understand, couldn't be here, 
regrettably; I learned that--the reason for his not being 
here--but each of you, as those who are Amtrak nominees, have 
each of you ridden recently on Amtrak?
    Ms. Naples. I rode on it yesterday. I came----
    Senator Lautenberg. Yesterday.
    Ms. Naples.--from BWI to Washington.
    Senator Lautenberg. What did you think of the ride?
    Ms. Naples. It was perfect. It was on time, it was--the car 
was----
    Senator Lautenberg. We were on----
    Ms. Naples.--extremely clean.
    Senator Lautenberg.--a different railroad, I can tell.
    [Laughter.]
    Ms. Naples. I had no problems yesterday, and I have taken 
this route frequently and have----
    Senator Lautenberg. Yes.
    Ms. Naples.--only once had a small problem.
    Senator Lautenberg. I came down on the railroad yesterday 
from Newark to Washington, and I was on the bumpy trains. I 
guess your train was--might have been a different one. But it 
just--even as it makes progress, it's obvious that it hasn't 
kept up with the current need. And the one thing I would 
caution those of you who are nominees, is, when you look at the 
reform, I have--you have to think deeply about what you mean by 
``reform.'' A reform doesn't simply mean getting--looking just 
at the work rules or things of that nature, to--but what role 
the railroad should play in America's near future--not far-
away; near future. And I think that you have an obligation to 
try and make sure that, whatever funding we can get for Amtrak, 
we must get.
    And, Mr. Chairman, all of us here are now aware of the fact 
that we are having a particular funding mechanism go into play, 
omnibus funding for our needs, and we've already been notified 
that this year's Amtrak expectation, not the new Amtrak 
reauthorization bill, but just the appropriations required, has 
been cut by $100 million. And these things play a terrible role 
in making sure that Amtrak, that has never been sufficiently 
funded--if we'd look at what's happened in Europe, Germany 
spent $7 billion a year, I think, for 10 years to get their 
system up to snuff. And, since this has been a public 
corporation since the early 1970s, I don't think we've spent 
$30 million--$30 billion. So, it's a--something that you have 
to look at.
    And I would caution you about making certain that you stand 
up for more funding and don't simply defend an administration 
position on what they want to do. Find the needs, understand 
what you've got.
    I didn't see you making any--either of you making comments 
in the--in your statements about what the problems might be. Is 
it equipment? Is it trackage? Is it signage? Is it--what kind 
of speeds do we want to see on Amtrak? If we could get Amtrak 
to accelerate its ride between here and New York, I think that 
we could relieve the skyways of some of the pressure that we 
have, the shuttles that go back and forth.
    But I want to just ask Mr. Stutler a question. You had a 
fairly high post in Florida, with Governor Bush, and we had--
you had, there, one of the most ambitious rail projects in the 
country in front of you. Now, what experience did you learn in 
that Administration that--because that project was killed. Am I 
correct about that?
    Mr. Stutler. Are you referring to the Florida--the high-
speed rail project----
    Senator Lautenberg. Right.
    Mr. Stutler.--or the commuter rail----
    Senator Lautenberg. No, the high-speed rail project.
    Mr. Stutler. If I may, Senator, Mr. Chairman. Senator, the 
highspeed rail, back in--I guess that--I wasn't in the role 
that I was when I--as Secretary at the time, but that project 
was thought, by the Governor at the time, to be a--not the--he 
didn't believe the ridership numbers.
    Senator Lautenberg. Well, how did you feel about it?
    Mr. Stutler. To be honest with you, I haven't look at them. 
I wasn't in a role to advise him on those sort of matters at 
the time, but I could--be happy to look at them----
    Senator Lautenberg. What was your position at the time, 
then?
    Mr. Stutler. I was working at the Department of 
Environmental Protection, doing environmental work, but I had 
mostly read--that was done--my--primarily, in the transition, 
in 1999.
    Senator Lautenberg. Do you think that experience will help 
you, as a Member of the Board of Amtrak, when you see projects 
that demand a bold approach in the--something that may be 
painful in developing, but on the--in the final analysis, will 
make our rail system a lot more efficient and better for us?
    Mr. Stutler. I think that that experience--you know, it 
wasn't hands-on. The one--I agree that a lot of the decisions 
to move forward with a--you know, a bold decision, are going to 
be painful at first. I definitely agree with that. And one of 
the ones that I would speak to, that I was very familiar with, 
is the development of commuter rail in central Florida through 
the area known mostly--you know, Orlando area, 61 miles. And 
one of the things that I learned there, Senator, was that--that 
was really a corridor-type approach--when you were looking at 
the Interstate 4 expansion, in order to get the same capacity 
on the rail--commuter rail, it was really about a $7 billion 
capital investment in order to get the same capacity that we 
were able to negotiate by using the line, do some double-
tracking, and 30 years of O&M, for $1.8 billion. And when you 
can move that number of people in the same general direction, I 
think that--as you referred to earlier, looking at the 
highway--I think we have to step back and look at an overall 
investment strategy in the corridors of this country, and I 
think Amtrak can play an important role in that.
    Senator Lautenberg. Speak up for--Mr. Chairman, thanks very 
much. I'm sorry if I ran a few minutes over. But I'd like the 
record to be kept open so we can submit written questions to 
our friends at the witness table.
    Thank you.
    The Chairman. It will be.
    Senator Carper?
    Senator Carper. If I could, I'd like to yield to Senator 
Smith, then I'll, maybe, succeed him, if I could.
    Thanks.
    Senator Smith. Thank you, Mr. Chairman, Senator Carper.
    Dr. Mulvey, in my opening statement you probably noted some 
of my concerns. The issue of private equity investing in 
railroads--I mean, I'm not opposed to it; I think it's an 
important source of capital, but I'm also mindful that they 
have very short-term investment goals. And I'm aware of some 
private capital investments in Oregon railroads that are going 
begging right now. And I wonder if you have a thought on that, 
or what the obligation ought to be of private equity firms who 
want to invest in railroads. Aren't there some obligations that 
you ought to be enforcing, or the STB, that can help protect 
the people who depend upon railroad for their commercial lives?
    Dr. Mulvey. I absolutely agree that people who invest in 
railroads ought to have a longer-term perspective than hedge 
funds generally do have. Now, when these hedge funds plan on 
investing in railroads, they very often stop by our offices and 
talk to us about their plans before they're going ahead and 
telling us that--they tell us, ``Well, they have a long-term 
perspective,'' that they're in here for 5 or 10 years, et 
cetera, and that's their plan. However, these assurances are 
not enough. We need----
    Senator Smith. Do you have any enforcement tools to hold 
them to their assurances?
    Dr. Mulvey. At this point, we don't. We can, however, if 
they begin to act in a way that is detrimental to the public 
interest and the service of the shippers, we can step in. I 
mean, if their complaint is filed, we can come in, examine, 
look at, see if the service is adequate, et cetera; and, if 
it's not, then we could tell them that they would have to 
divest the line and sell it off to somebody who wants to give 
the service.
    Senator Smith. Do you need some legislative authority, that 
we ought to be getting to you, to have the enforcement----
    Dr. Mulvey. I think what we need is our ability to 
investigate on our own initiative as--instead of waiting for 
someone to act and say, ``There's a problem developing up 
here.'' We're aware that those problems exist, not only in your 
state, but around the country. There are places where railroads 
are cutting back on their investment, saying, ``Well, maybe the 
traffic isn't there.'' And we need to be able to look at that 
and make sure that the public's--is being served and that 
shippers are getting good service and that they're not being 
just exploited as assets without any understanding of the 
common-carrier obligation. Railroads do have a common-carrier 
obligation, and the STB does have a mission, a role, a charge 
to enforce that common-carrier obligation.
    Senator Smith. Well, I hope that if you find, as you 
proceed after your confirmation--reconfirmation--that you need 
more authority than you have, that you will come to this 
Committee, and we will write you authority to make sure you 
have the tools necessary to serve the public.
    Dr. Mulvey. We certainly will, sir.
    Senator Smith. Do you believe that the abandonment process 
effectively balances the interests of shippers and railroads?
    Dr. Mulvey. The abandonment process, right now, to some 
extent, it--there are ways to make sure that the interests of 
the railroads and shippers are balanced. When a railroad wants 
to abandon a line of--a branch line, or what have you, it has 
to protect labor, it has to give labor protection if there are 
workers involved; it has to notify shippers that it's going to 
be abandoning the line; and then, those who are being served on 
the line do have the option of putting up an offer of financial 
assistance so that that rail line can be kept operating. And 
that's important. And very often we do get these offers of 
financial assistance; shippers or other groups will find 
somebody else to operate the line, and the line can continue.
    We are very concerned about keeping the amount of rail 
service--rail lines that are in operation stay in operation. 
Our Nation's rail system has shrunk dramatically since 
Staggers, and it's--we have, now, less than 100,000 miles--
route miles of rail line today. We don't want to see that get 
any smaller. We want to make certain that when lines are no 
longer capable of being served by the large Class I railroads, 
that there are either Class II railroads or Class III railroads 
or others who can come in there and offer the service.
    Senator Smith. I just want to register my concern--my 
question, really--that perhaps the abandonment process does not 
adequately balance the interests of involved shippers and 
railroads. And I think that that's something that really 
deserves our attention.
    Dr. Mulvey. We certainly are looking at--willing to look at 
the abandonment process, as well as the other processes we 
have, to make sure that money does come in to the railroads. 
We've had a lot of discussion in this hearing about the need 
for infrastructure investment. And people often focus on high-
speed rail or airports or highways, et cetera, but that goes 
all the way down to the small short-line railroads, as well.
    Now, there was legislation that was passed a while back, 
when I was working on the Hill, and I was proud to have worked 
on that, which committed monies to invest in short-line 
railroads, about $1 billion over a 3-year period, so those 
lines could be upgraded so they could handle more traffic and 
stay in business, and replace the worn-out bridges and other 
parts of the railroad infrastructure. And that particular piece 
of legislation, I believe, is up for renewal. And I think it's 
important that monies be made available for these short lines 
so that they can get capital at reasonable rates, and can make 
the investment to continue to operate.
    Senator Smith. Well, to that very issue, Commissioner, 
earlier this fall the short-line railroad that provided service 
along a 136-mile stretch in southwest Oregon announced it would 
suspend service, due to safety concerns involving the line's 
tunnels. The Federal Railroad Administration engineers have 
toured the line and confirmed that it is a safety hazard. 
According to FRA's inspection report--and I am quoting--
``predominant problems observed were decay of untreated cinder 
timbers, lagging and footing blocks.'' The FRA's inspectors 
noted that ``some of the timbers sound hollow and decayed when 
struck with a hammer.''
    Now, clearly this situation did not happen overnight, this 
has been going on, apparently, for a long, long time. And what 
I really want to know is what Surface Transportation Board's 
role is in ensuring that investments are made to provide proper 
maintenance so that we don't get into these situations and 
literally strand--leave stranded hundreds of family-supporting, 
good wage jobs that work in mills, that work in fish 
processing, that work in places that really have no other 
transportation alternative, because the winding roads to get to 
I-5 are simply already congested. What is the role of the STB?
    Dr. Mulvey. Well, I can't speak directly to the situation 
you have, because that case may come before us, but I can speak 
more generally to the needs, to make sure that we invest in the 
railroads and keep them safe and sound. You point out that the 
deterioration of this line is not something that happened 
overnight. There is some----
    Senator Smith. Who's responsible, and who do we look to for 
an answer to--when we go back home and we are confronted with 
hundreds of people who are saying, ``Well, wait a minute, they 
didn't make the investment, and my job is coming to a close 
because we can't ship what we produce here''?
    Dr. Mulvey. --part of it, of course, is a safety issue. 
These tunnels were declared unsafe by the FRA and their 
inspectors. If you have ties that are sounding hollow, it means 
they haven't been replaced when they should have been replaced. 
There are FRA--and, for that matter, AAR--rules and regulations 
regarding maintenance, and if those have not been observed, 
then there should be enforcement of those safety rules. And 
that is an FRA--an FRA matter, rather than a Surface 
Transportation Board matter.
    Senator Smith. Well, I'm taking----
    Dr. Mulvey. Our role----
    Senator Smith.--I'm taking it up after them. And please 
don't regard this as a criticism of you, Commissioner, that is 
not intended so--but somebody's failed on the job, candidly. 
Something has gone wrong. So, if it isn't STB, it's FRA. And 
somebody needs to answer to all these people.
    Dr. Mulvey. I agree. We shouldn't be pointing fingers, and 
I don't mean to be pointing fingers--pointing fingers. What I 
am suggesting is that we need to continue to be vigilant----
    Senator Smith. Yes.
    Dr. Mulvey.--and see what is happening around the country. 
And, again, as I said, if we had more investigatory powers and 
able to look and--when we hear that investments aren't being 
made, go out and find out why--we have an Office of Consumer 
Affairs, we have an Office of Government Affairs, both of whom 
are actively working on your particular issue in Oregon. But, 
basically, they can just offer their good services and try to 
negotiate a solution. It would be good if we could do more than 
that, we could say, ``Look, you are not being a good operator 
here. If you are not going to do what's necessary to serve the 
people, then we may need to''----
    Senator Smith. They're the wrong owner, then.
    Dr. Mulvey.--``get a new owner.''
    Senator Smith. But, you know, whether it's FRA or STB, we 
need somebody that has some authority and some accountability, 
and this is an issue that really does impact, adversely, rural 
places.
    Dr. Mulvey. That's why--I understand that. It certainly 
does, sir.
    Senator Smith. Well, thank you, Commissioner.
    And, Mr. Chairman, just a general question to our other 
nominees.
    Oregon and Washington are one of just a handful of states 
who meet their Amtrak copayment obligation. I was very pleased 
to help participate in passing the Amtrak reform bill that 
moves into a more fair allocation of cost-sharing with states 
fulfilling their responsibilities, too. We have the Cascade 
line that is very important to the Pacific Northwest. 
Passengers use it all the time. The trains are full and 
appreciated. And the State legislatures are meeting their 
responsibility. But when it comes to cost allocation and 
capital match, I want to really highlight to you, the key is--
ensuring long-term viability and growth in ridership--is that 
states participate. The bill--the reform bill we passed makes 
that requirement. And so, I wonder if any of you have a comment 
about the role you see for States in expanding passenger rail 
and ensuring that the whole system remains viable. To any of 
you.
    Ms. Naples. Mr. Chairman, Senator Smith, I certainly 
believe--and I applaud Senator Lautenberg for his words, saying 
that we need to take a holistic approach to this, we have to 
look at the entire picture in order to see Amtrak survive and 
thrive in the future. And, certainly, the states' participation 
is extremely necessary.
    I don't have any further data on it. I'm new to this. But I 
certainly believe that that is the approach we should take. And 
if the States need to take a role, then they must take a role, 
because train travel in this country is vital to our future.
    One point that I don't think was made about the necessity 
of train travel in the future is that it leaves a smaller 
carbon footprint, as well. So, besides the fact that our 
airways are congested and it's very difficult to get around, I 
have great familiarity with highway safety, because I was the 
Commissioner of Motor Vehicles in New York State, and I know 
how crowded our roads are; and it's worse than ever. So, I 
think that there is a tremendous need for rail transportation 
in this country. We certainly need to look at that whole 
picture and figure out funding and participants' roles, such as 
the States.
    Senator Smith. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Carper?
    Senator Carper. Thanks, Mr. Chairman.
    Again, thanks to our witnesses for your presence and for 
your willingness to serve our country.
    A couple of questions, if I could, for Ms. Naples and for 
Secretary Stutler.
    First, Secretary Stutler, when you left my office 
yesterday, you were having real problems with your back, and I 
could tell you were in a lot of pain. I don't know if you're in 
pain right now, but if it gets to be too painful, I'd stand up, 
if I were you, and we'll try not to make the pain any more 
painful than it needs to be. But thank you for sticking through 
this.
    The question I--one of the questions I asked our Amtrak 
nominees yesterday--and I just wanted to come back to it again 
today, to ask each of you just to share with us your vision for 
passenger rail service in the 21st century.
    Ms. Naples, would you start off, and then, Secretary 
Stutler, I'll ask you, to just lay it out in some detail, if 
you would, your vision for passenger rail service in this 
country in the 21st century.
    Ms. Naples. More than ever, I think we need to have an 
excellent system that is reliable and flexible, that people can 
travel, not only for short distances, but long distances. I 
think that, again, using Senator Lautenberg's words, we need to 
look at this from a holistic perspective, look at the whole 
picture. And, when I say that--and I think I said this to you 
yesterday, when you were gracious enough to meet with us, 
Senator Carper--that we need to make this whole idea of rail 
transportation--and every American needs to understand--it is a 
national priority. With the world changing as rapidly as it 
is--and one thing that I think I mentioned yesterday was, the 
use of electronics by everyone constantly, whether it's their 
BlackBerrys or their cell phones or their DVD players, we see 
people, we see people who are so reliant on these things, and 
you can't drive a car--hopefully, you don't drive a car as 
you're sending an e-mail message--people really require a way 
of getting around, where they can use the tools that they use 
every day. And I think if we had a national commitment, part of 
our--part of our national motivation, I guess, that people--
that rail is very, very important to America's--Americans, and 
it can solve a lot of problem, I think that we then can see 
this emphasis, and, with the Congressional support, as well as 
administrative support, we can build these railroads into 
providing much better service than we have today, and bring the 
rails into the lives of many, many people.
    I'm personally committed to this. I personally want to see 
passenger rail service thrive in this country. I love the 
railroads. And I'm taking on this responsibility--I have 
requested your confirmation for this position--so that I can do 
everything in my power to bring rail travel to the attention of 
Americans and to see that we solve the problems. I'm not here 
just to look at the financial aspect of it, but to look at the 
whole picture and to improve rail travel for every American and 
make it a viable system of transportation in this country.
    Senator Carper. Secretary Stutler?
    Mr. Stutler. Mr. Chairman, Senator Carper, thank you for 
your concerns, as well as your question.
    I guess I--when I look at the--you asked this question 
yesterday, and I--thinking about it, a couple of thoughts come 
to mind.
    Number one is, I think intercity passenger rail in this 
country represents some simplicity that I think that--is 
beneficial, at least my own experience in--and many times I've 
traveled from this city up to New York City on Amtrak, and it's 
just easy. It's just easy, and it's simple. You get on the 
train, you pop up your laptop or your papers, and you're there 
in--and it's simple. And I think that we've not made it as 
clear to people how easy it is to use and how friendly it is 
and capable of serving--you know, being a service provided--or 
Amtrak as a service provider.
    I also think that--when I think about the vision for the 
21st century of intercity passenger rail, I think of looking at 
a corridor approach of investment choices of all of our 
transportation dollars. And I think that, when--you know, we 
have existing infrastructure, we have existing rights-of-way. 
Those are--the cost increases associated with rights-of-way and 
infrastructure have been double-digit increases for the last 2 
to 3 years. It's very costly to build new rights-of-way, 
whether it's for roads or for rail. And I think we have to--
when I look at a I-95 corridor, I think about, you know, there 
are rail alternatives, there are state road alternatives, and 
there are, you know, U.S. 1 and other alternatives, if you sort 
of took a cross-section. I always look at them as pipes, you 
know, filled with water, and each pipe is capable of holding a 
little bit more water. And, I think, when it comes to 
passengers, our rail system is capable of taking on more 
capacity. And, as we make choices between lane-miling our way 
out of congestion and alternatives in passenger rail, I think 
it has to be looked at, but it's going to take, you know, a--
it's going to take a different approach to how we fund 
transportation and how we, you know, make investment choices.
    I think that it can provide, in those congested corridors, 
with the right incentives, transit or interdevelopment that 
is--you know, when I go into--I guess, it's Penn Station, in 
New York City, and--I mean, dry cleaners right there, shoe--you 
know, have your shoes--food, everything you need is right 
there, because it's--the critical mass is there to create the 
emphasis for business.
    So, I guess, to answer your question, I see it as a viable 
option that creates, you know, simplicity for a lot of us who 
are going a million miles a minute. I think it creates a real, 
legitimate choice to be made as our transportation investments 
are made. And I think that--I might be naively optimistic, but, 
you know, I haven't presumed anything, so I haven't been--I 
haven't been consumed by all the facts yet.
    Senator Carper. Thank you.
    Let me ask--and this would be a question for you, Secretary 
Stutler, and then for Ms. Naples, as well. Let me start--ask 
you to start off.
    When--putting on your old hat as the Secretary of 
Transportation for your state, how can we create a better 
partnership between the Federal Government--federally funded 
Amtrak, working in concert with the states and working in 
concert with the private freight railroads who own the track 
over which Amtrak needs to travel outside of the corridor?
    We were talking, yesterday, about--and you mentioned again 
today in your testimony--that the ridership--you, sort of, 
wondered aloud yesterday, and again today, why the ridership on 
Amtrak is as low as it is. Actually, in the Northeast Corridor 
you can't buy a train ticket for the next week or two, and it 
was that way around Thanksgiving. The Amtrak, Acela Express, is 
run probably--oh, more than 80 percent full. During the course 
of the day, they generate a fair amount of money. Their on-time 
performance is about 90 percent. When--the regionals do well, 
but not that well--but when you get outside the corridor and 
Amtrak doesn't own the track, as you know, they've got to get 
out of the way of the freights. And the priority of the freight 
railroads, for the most part, is to move freight, not people.
    But, just--my question is, how do we make it--if you--I 
think of it like--almost like three legs of a stool--Federal 
Government, through Amtrak, the State governments, and the for-
profit freight railroads--how do we get them, better, to work 
together to provide the underpinning for passenger rail service 
that works outside of the corridor? And we've seen some 
examples out of Chicago, in the Midwest and certainly on the 
West Coast, that might provide some examples. But, go ahead.
    Mr. Stutler. Mr. Chairman and Senator Carper, thank you.
    Let me begin, just, really by way of example, and that is, 
what the state of Florida was doing in the commuter rail in 
central Florida was trying to achieve a full-funding agreement 
with the Federal Government. The opportunity to have a--you 
know, reach an agreement with CSX was as much about timing as 
it was anything in that Federal process. We had to demonstrate 
that we either had the ownership of the line or a perpetual 
easement for use of the line, which required negotiations with 
CSX.
    You know, first of all, I think, without question, you 
know, requiring States to fund a portion of the investment is 
critical, because I think that shows a commitment, and I think 
that prioritization of funding and making choices, and making 
the choice to make it a priority, is important. So, I think, 
just in basic principle, State funding is important, and 
participation.
    As it relates to the for-profits, I think that, you know, 
it gets--you know, the--my own experience--not based on 
empirical data, but just my own observations--is that for 
some--you know, with the--there's been a long period of time 
where passenger rail wasn't used as widely as I think it has 
the chance of becoming more widely used again. And so, freight 
had the benefit of, you know, using the lines when they needed 
to. What I learned in the central Florida example was, there 
are enormous modeling techniques, and, frankly, it's a nominal 
incremental cost to add double tracking in existing right-of-
way, compared to acquiring new right-of-way to build new lanes 
of road. And so, when we were able to, and a willingness to, 
cost-share double-tracking to allow for the movement of trains 
as needed by all parties, it was--you know, it was an 
investment, I'm going to say, that's less than--less than $100 
million--I don't recall the numbers, but certainly could follow 
up, if I need to--but, you know, it was modest investment for 
achieving everyone's interest in an existing corridor, and, 
really, at the end of the day, was, through negotiations--and I 
think that that's going to be--first of all, there needs to be, 
you know, a framework established that allows for flexibility, 
and then--and then, from the partnerships with the private--the 
for-profit railroads, I think if there's a genuine interest in 
achieving both goals, I think the technology and the modeling 
is there to allow that to happen, and I think there has to be a 
shared interest in realizing the benefits of it, and we just 
can't lane-mile our way out.
    So, with that, turn it over to Ms. Naples.
    Senator Carper. I know my time is expired, Mr. Chairman. Do 
we have time for, maybe, a minute for Ms. Naples on this 
question?
    The Chairman. Without objection.
    Senator Carper. Thanks very much.
    Ms. Naples?
    Ms. Naples. Thank you, Mr. Chairman. Thank you, Senator.
    My business experience has taught me some lessons in how to 
get things done, and certainly, without having details about 
how this operates--I'm sorry that I don't have any details 
about it--but, just from a business perspective, I think that 
the first approach that I would suggest taking would be 
communicating with all the interested parties, and let's not 
only try to give one viewpoint, but bring all viewpoints to the 
table and come to some agreements.
    I also believe that the fact that there is a financial 
responsibility is extremely important, because that brings 
ownership and a vested interest for all the parties, as well.
    So, from that perspective, I think that's how I would 
suggest we would approach something like this.
    If I'm confirmed by this Committee and by the Senate, I 
certainly will do more to learn about the details of exactly 
what's involved.
    Thank you.
    Senator Carper. Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Mrs. Naples and gentlemen, on behalf of the 
Committee, I'm pleased to congratulate you on your nominations 
and to thank you for your public service.
    We will be submitting questions for your consideration, and 
I hope you can respond to them.
    This afternoon, in mid-afternoon, we will have an executive 
session, at which time Mr. Johnson, Ms. Naples, Mr. Stutler, 
Dr. Mulvey, and Mr. Carper will be confirmed. And so, 
congratulations.
    Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:21 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
